<html>
<title> - PROPOSED FISCAL YEAR 2007 BUDGET REQUEST FOR THE FOREST SERVICE</title>
<body><pre>[Senate Hearing 109-395]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-395
 
    PROPOSED FISCAL YEAR 2007 BUDGET REQUEST FOR THE FOREST SERVICE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   TO

       REVIEW THE PROPOSED FISCAL YEAR 2007 FOREST SERVICE BUDGET

                               __________

                           FEBRUARY 28, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-669                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel
                Frank Gladics, Professional Staff Member
                David Brooks, Democratic Senior Counsel
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Bosworth, Dale, Chief, Forest Service, Department of Agriculture.     5
Cantwell, Hon. Maria, U.S. Senator from Washington...............    30
Craig, Hon. Larry E., U.S. Senator from Idaho....................    33
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     1
Paige, Sean, Editor, The Gazette, Colorado Springs, CO...........    38
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................    13
Salazar, Hon. Ken, U.S. Senator from Colorado....................     3
Talent, Hon. James M., U.S. Senator from Missouri................    24
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Wyden, Hon. Ron, U.S. Senator from Oregon........................     4

                                APPENDIX

Responses to additional questions................................    41


    PROPOSED FISCAL YEAR 2007 BUDGET REQUEST FOR THE FOREST SERVICE

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington D.C.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas [presiding]. I call the committee to order. 
The chairman is on his way, but he said we could go ahead and 
get started, and I'm sure he'll be here soon. We welcome our 
witnesses here today. We appreciate very much your being here. 
We think of course this is a very important issue to all of us, 
and we're anxious to discuss it with you.
    I really don't have an opening statement other than I do 
want to thank you for being here, and it's very important to 
our State and what we do there in terms of the budget, and what 
we do in terms of the allocation of the funding is key. So, let 
me turn to Senator Bingaman.
    [The prepared statements of Senators Murkowski and Salazar 
follow:]
 Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Louisiana
    Good morning, Mr. Chairman. It is not often that we have the 
opportunity to complement the federal agencies at the annual budget 
hearing but this Senator--for one--has something to be thankful for and 
I want to share it with the committee this morning.
    It should come as no surprise to anyone who follows forest issues 
that litigation, uncertainty over the availability of timber, and pure 
politics has made it difficult for the three or four remaining timber 
mills in Southeast Alaska to remain in business.
    I have spoken with pride on the floor of the Senate about the 
determined businesspeople who operate these mills--Steve Seley in 
Ketchikan, Kirk Dahlstrom in Klawock, and Dick Buehler in Wrangell--who 
have put up with the frustration, year after year, not knowing whether 
they will have enough logs to continue to operate . . . not knowing 
whether their next year's timber supply will be tied up in years of 
litigation.
    Yet they hang in there but because their businesses create and 
maintain jobs in Southeast Alaska. Their businesses create jobs in a 
regional economy that suffers from double digit unemployment. The 
December 2005 unemployment rate, for the Outer Ketchikan-Prince of 
Wales Island area where Kirk Dahlstrom's mill--Viking Lumber operates--
was 16.4%.
    Most of these folks can retire to Palm Springs or Mexico and 
reminisce about the glory days of timber in Southeast. Instead, they 
choose to stick it out. These people are my heroes.
    On January 18th, Alaskans awoke to the news that Steve Seley would 
close his mill put his 23 employees out of work. Not only that--the 
loss of Seley's mill would have rippled through the Ketchikan economy 
causing more devastation.
    Everyone wondered why Steve would throw in the towel after so many 
years of fighting to keep his business alive. This is the question he 
posed to the Anchorage Daily News--

          Can the federal government perform or not?'' in making a 
        predictable supply of timber available to these family owned 
        mills . . .
          ``The industry is out of capital, out of logs and almost out 
        of desire.''

    Out of capital, out of logs and almost out of desire . . . It 
sounded to many people in Ketchikan that there was no hope of saving 
Seley's mill. Yet on February 18th, Seley announced that he would 
remain open.
    The efforts of the Forest Service during that month--working in 
conjunction with Senator Stevens, Congressman Young and my office, with 
Governor Murkowski, with Owen Graham and the Alaska Forest 
Association--made all of the difference in persuading Steve Seley that 
there is a future in Tongass timber. That focused effort made all of 
the difference in persuading Steve Seley to fight another day.
    The people of Southeast Alaska are enormously grateful. I am 
grateful. Mark and Chief--please extend my personal appreciation to 
Forrest Cole and his team in Ketchikan for their efforts.
    Now that's the good news. But we can't rest on our laurels. We must 
always remember that there are several other mills that could close 
tomorrow as well as a veneer plant in Ketchikan that remains idle. 
These too need a predictable supply of economic timber.
    My objective is to help the timber industry rebuild . . . to evolve 
into an integrated forest products industry in Southeast Alaska . . . 
so that we can count on to produce jobs for years to come. Mr. Rey and 
Chief Bosworth--I hope that you too are onboard with that objective.
    I wanted also to spend a minute on the County Schools Bill 
reauthorization. I strongly support the reauthorization of this program 
and have joined the Chairman and others in co-sponsoring S. 267--the 
bipartisan bill which would extend the life of this crucial program.
    The Secure Rural Schools Act pumps about $9.6 million a year into 
my State of Alaska--the vast majority of this money into the 
communities of Southeast Alaska which once enjoyed prosperity from 
timber and fishing but now enjoy some of the highest unemployment rates 
in the State of Alaska.

  <bullet> Skagway-Hoonah-Angoon--20.3% unemployment
  <bullet> Haines Borough--12%
  <bullet> Yakutat--13.1%
  <bullet> Wrangell-Petersburg--11.4% unemployment

    These revenue sharing funds also help communities on the Kenai 
Peninsula make ends meet.
    I am dissatisfied with the administration's proposal to sunset this 
program over the next five years--reducing payments over that five year 
period. Yet I have to admit that I understand where they are coming 
from.
    The perplexing problem is that this program is supposed to be 
funded from timber revenues. But there aren't enough timber revenues to 
provide our schools and communities with a stable funding stream. At 
the same time, this Congress has allowed a system to fester where our 
ability to cut timber that professional foresters think should be cut 
is delayed . . . delayed . . . delayed. Delayed through endless appeals 
and litigation . . . leading to revisions of plans and environmental 
documents . . . leading to more appeals and more litigation. It seems 
like an endless cycle.
    I strongly support the County Schools bill in its present form, but 
I think that the administration's proposal is a wakeup call to this 
committee that the Nation may not continue to support revenue sharing 
that benefits pockets of the country from mandatory spending. If we 
want the revenues to continue to flow we need to make it possible for 
the timber industry to do its job and we need to take action to reduce 
the endless legal delays which hold them hostage.
    It is good to see you again, Mr. Rey and Chief Bosworth. I look 
forward to your testimony.
                                 ______
                                 
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you, Mr. Chairman and Ranking Member Bingaman. I want to 
welcome Undersecretary Mark Rey and Chief Dale Bosworth--it is good to 
have you here.
    Over the past several years, our forests have endured scorching 
droughts, blistering fires and insect infestations. In Colorado and 
across much of the West, bark beetles have taken advantage of dry 
conditions to run rampant, killing trees and further elevating the fire 
danger.
    The public has rightfully become alarmed at the dangerous state of 
our forests and has called for better federal management. They want 
quicker and better-coordinated responses to fires, long-term planning 
to improve forest health, and action on the bark beetle issue.
    Restoring the health of our forests is indeed our responsibility as 
stewards of our land, but it is even more important for the safety of 
our families and the health of our rural communities. For towns like 
Woodland Park, Colorado, surrounded on four sides by forest, the 
federal government's ability to meet its forest management 
responsibilities is a question of public safety.
    I appreciate the difficulty of putting together a budget that meets 
all the needs of our forests and rural communities, but I also think we 
should make smart choices in allocating our resources. Unfortunately, 
there are a number of items in this budget which, I feel, compromise 
our security or violate common sense. I want to briefly outline three 
of these.
    First, I do not understand why the Forest Service's budget cuts 
funding for bark beetle management activities by 48%, to under $17 
million. Addressing bark beetles is essential to rural communities in 
Colorado surrounded by forest that see the fire danger escalate with 
every new stand of beetle kill.
    Second, we continue to face extraordinary fire danger across the 
West. In the southern half of Colorado, which has yet again received 
below-average snowfall, the fire season has already begun. The Forest 
Service budget seems to take little account of these dangers, instead 
shifting funds between accounts and making cuts to some of our most 
effective fire mitigation partnerships with states.
    Finally, this budget proposes a massive sell-off of public lands to 
generate revenue. I don't know what sort of public input the Forest 
Service sought before setting forth this proposal, but I can certainly 
tell you that this idea has not been well received in Colorado.
    I look forward to hearing more about these, and other, provisions 
in the budget in your testimony. Again, thank you for being here.
    Thank you, Mr. Chairman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Well, thank you very much, Mr. Chairman. 
I do want to mention just a few items before we start with 
testimony, if I could, about the concerns that I have with the 
Forest Service budget. I think one major concern, as I 
understand the budget, is the proposal to sell off $800 million 
in national forests in order to partially fund and then to 
terminate this County Payments Program. This is a program that 
Senators Wyden and Craig on our committee have taken the lead 
on. It's been very successful, and it's brought people together 
to really invest in the restoration of our Federal lands. I'm 
concerned that the budget proposal is a significant distraction 
for the agency personnel that have a lot of important work they 
need to be doing. And I would hope that we could go ahead with 
a bipartisan effort to re-authorize that County Payments 
Program in spite of the budget proposal, but that's something 
we need to ask the witnesses about.
    A second issue is drought. It's a very real issue in my 
State and in much of the West. In the Southwest, we're 
struggling to prepare for what looks to be the worst 
catastrophic fire season we've had. The proposed budget calls 
for the Fire Preparedness Program to be cut by 20 percent, and 
that is on top of cuts that were made the year before. The 
budget proposes another $10 million being cut from the National 
Preparedness Program with pretty dramatic cuts in State fire 
assistance and the virtual elimination of the Fire 
Rehabilitation Program. That is certainly contrary to the view 
that I would find anywhere in my State.
    The lack of funding for hazardous fuel reduction projects 
is also a concern. We have tens of thousands of acres of 
projects in the Southwest that have completed the NEPA 
analysis, the notice and the comments. They're ready for the 
immediate implementation of that hazardous fuels reduction 
activity if the funds are made available.
    Let me also mention water. This is related, but not the 
same as the drought issue. Watershed protection was perhaps the 
most important purpose for the national forest, as I understand 
the 1897 Organic Act. I'm concerned about the continued lack of 
commitment to water in this budget. Significant cuts are 
proposed to the Bureau of Reclamation, the Geological Survey, 
Indian Affairs, EPA, and the Corps of Engineers water programs. 
All of that I think is unfortunate.
    There used to be a statement in the budget justification 
that the Forest Service would say that fixing roads is its 
single most significant thing that could be done to improve 
water quality in the national forest. I don't see that 
statement in this year's budget. Instead, we see continued cuts 
in the road maintenance budget. Their proposal is to eliminate 
$39.4 million. 17.7 percent of that program is slated for 
elimination, as I understand it.
    So I have several of these issues that I hope to get to ask 
questions about. Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you very much, Senator 
Bingaman. Did we decide how we were going to proceed? You made 
a statement?
    Senator Thomas. Yes, sir. I think we were just going to 
have the witnesses and then go to our 5-minute routine.
    The Chairman. Right.
    Senator Thomas. Unless you'd like to change that.
    The Chairman. Well, I have a statement, but I think what 
I'll do is I'll proceed in that order and then use my statement 
as part of my questions. So we'll proceed, unless you Senators 
are not all right with that program.
    Senator Wyden. Mr. Chairman, I may not be able to stay. 
Could I just be recognized for maybe 3 minutes or so?
    The Chairman. Well, okay, we'll do that. Three minutes, 
Senator. You've got it.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. You're welcome.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Mr. Chairman, I want to commend you and 
Senator Bingaman and talk just for a moment about where I think 
we are in forestry. Between 1985 and 2000, no major forestry 
bill was passed by the Congress and signed into law. 
Essentially, between 2000 and 2006, this committee worked in a 
bipartisan way. We produced two major pieces of legislation, 
the Secure Rural Schools Act, called the County Payments Bill, 
and the Forest Health legislation. What I think we're seeing 
today is essentially a proposal that would dismantle one of 
them, the Secure Rural Schools legislation. I've talked with 
Senator Craig, and with many of you about it--and with you, Mr. 
Chairman--and I think we just have to work together in a 
bipartisan way once more to preserve this program. I think 
there are some new areas that we may be able to look at like 
putting biomass projects into this legislation, something that 
would be a clean source of energy, something that's been 
supported in this committee.
    But if the budget were to go forward in this way with the 
public land sales, it'd push a lot of these rural communities 
off an economic cliff. We can't afford to let that happen. I 
would just like to work with you, Senator Bingaman, Senator 
Craig and others to preserve the important work that was done 
over the last few years, because through working together, we 
got two important pieces of legislation passed. I would hate to 
see one of them dismantled, as we're faced right now with the 
Secure Rural Schools legislation. I want to commend you and 
Senator Bingaman for all your cooperation.
    The Chairman. Thank you very much, Senator, for your 
observations. You have a difficult one there, there's no 
question. We're now going to proceed to take the witnesses. 
We're short of time because the Senate's trying to do a lot of 
other things. We're going to start, please, with you, Chief. 
Make your statements brief and your entire statements will be 
made part of the record.

 STATEMENT OF DALE BOSWORTH, CHIEF, FOREST SERVICE, DEPARTMENT 
                         OF AGRICULTURE

    Mr. Bosworth. Mr. Chairman and members of the committee, 
thank you for the opportunity to be here again today and to 
talk about the president's fiscal year 2007 budget for the 
Forest Service.
    The fiscal year 2007 President's budget for the Forest 
Service totals about $4.10 billion in discretionary funding. 
It's a $104 million decrease from fiscal year 2006 enacted. The 
budget advances some of the agency's top priorities, to sustain 
the health of the Nation's forests and grasslands. I want to 
begin by discussing some of our successes, though, from the 
past year and then talk about our strategy for accomplishing 
our agency objectives at a time when our Nation also needs to 
exercise fiscal discipline to provide critical resources needed 
for our Nation's highest priorities.
    In 2005, we demonstrated that the Forest Service continues 
to be an agency of great value to the American people. We 
maintained, again, a 99 percent initial attack success rate on 
fires. Together with the Department of the Interior, we treated 
more than 4.3 million acres of hazardous fuels.
    In support of Hurricane Katrina, the Forest Service 
provided support to over 600,000 people, distributed over 2.7 
million meals, 4 million gallons of water, and 40 million 
pounds of ice. We had 5,500 employees work over 250,000 
personnel days.
    We also accomplished work while simultaneously improving 
our organization, our financial management. We have a service 
center now in Albuquerque that became operational last spring. 
We have about 400 employees there. We received our fourth 
consecutive clean audit opinion, and we expect to save over 
$241 million in administrative costs over the next 5 years.
    For 2007 priorities, the President's budget provides 
increased support for programs to improve forest health, 
protect critical resources from catastrophic wildfire, and to 
meet our commitments to the Northwest Forest Plan. The budget 
continues the work of using the Healthy Forests Initiative and 
the Healthy Forests Restoration Act authorities in restoring 
forest health. The Department of the Interior and the Forest 
Service will treat 3.2 million acres in fiscal year 2007, of 
which a majority is in the wildland-urban interface. We'll be 
increasing the use of stewardship contracting authorities. We 
expect to do about 100,000 acres of projects using those 
authorities.
    The Forest Service continues to assist communities adjacent 
to national forest land in development of community wildfire 
protection plans. As of December 2005, at least 450 community 
wildfire protection plans were complete, covering 2,250 
communities. We'll be increasing the wildland fire use for 
restoring forest health. We did something like 251,000 acres in 
2005. It'll be fostering markets for biomass utilization. It'll 
make restoration work much more financially feasible.
    Our budget will allocate $61.5 million for the Forest 
Legacy Program, which is an important way to protect much-
needed open space in a very cost-efficient manner. A key theme 
from the White House conference on Cooperative Conservation and 
the Forest Service Centennial Congress was that the future is 
collaboration, not top-down regulation. Our new planning 
process encourages more public involvement in earlier stages 
and is more strategic and more efficient. The new travel 
management rule engages the public in a cooperative process 
resulting in greater protection of natural resources without 
significant expenditures. Our resource advisory committees, 
that are established through the Recreation Enhancement Act, 
leverage public involvement to improve Forest Service 
effectiveness and efficiency. The Energy Policy Act of 2005 
allows the Bureau of Land Management and the Forest Service to 
develop interagency agreements in order to reduce the backlog 
of oil and gas lease applications. The Partnership Enhancement 
Act that we have submitted for your consideration would expand 
the Forest Service's ability to engage in cooperative 
agreements. The budget reflects continued implementation of the 
Forest Service vision as a center of excellence in government, 
which includes reducing our indirect costs to $461 million to 
increase those dollars to the ground.
    The Facilities Realignment and Enhancement Act allows us to 
streamline facility holdings while producing additional funds 
from mission-critical facility maintenance. We continue to 
provide high-quality recreation opportunities; we received over 
200 million visits in 2005. To meet the increasing demand, 
we're exploring innovative ways to manage our recreation 
program. We'll be keeping you informed on some of those ways 
that we're considering. Research and development is leading the 
way in expanding collaborative efforts by focusing funding on 
congressional priorities that have at least 40 percent 
extramural funding.
    During the next 5 years, the Business Operations 
Transformation Program is estimated to save $241 million. 
Centralization of budget and finance improves the transparency 
and accountability, in addition to efficiency.
    So, in conclusion, the Forest Service 2007 budget responds 
to the national need for deficit reduction while preparing for 
a new, more collaborative era of natural resource management.
    So again, I appreciate the opportunity to be here, and I'm 
looking forward to working with you to implement our fiscal 
year 2007 program. I'd be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Bosworth follows:]

      Prepared Statement of Dale Bosworth, Chief, Forest Service, 
                       Department of Agriculture

                                OVERVIEW

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to discuss the President's Fiscal Year (FY) 2007 Budget for 
the Forest Service. I am pleased to be here with you today.
    The FY 2007 President's budget for the Forest Service totals $4.10 
billion in discretionary funding, which is a $104 million decrease in 
funding from FY 2006. The budget advances the top priorities of the 
agency in order to sustain the health of the Nation's forests and 
grasslands. I will begin today by sharing some of the Forest Service's 
successes from the past year; these successes demonstrate our 
capabilities to accomplish the challenges ahead. Then, I will discuss 
our strategy for accomplishing agency objectives at a time when our 
Nation also needs to exercise fiscal discipline to provide the critical 
resources needed for our Nation's highest priorities: fighting the war 
on terrorism, strengthening our homeland defenses and sustaining the 
momentum of our economic recovery.

                        FOREST SERVICE SUCCESSES

    In 2005, the Forest Service achieved its priorities and 
demonstrated that it continues to be an agency of great value to the 
American people. The Forest Service exceeded its goals to restore the 
health of our forests and protect critical resources from catastrophic 
wildfires. Working collaboratively with the Department of Interior 
(DOI), the Forest Service controlled 99 percent of all unwanted and 
unplanned fires during initial attack.
    The Forest Service and the Department of the Interior last year 
treated hazardous fuels on more than 2.9 million acres of land, and 
reduced hazardous fuels on an additional 1.4 million acres through 
other land management actions.
    Federal agencies plan to treat 2.9 million more acres in 2006, and 
accomplish hazardous fuels reduction on an additional 1.6 million acres 
through landscape restoration activities. An additional 4.6 million 
acres are planned for 2007, which includes 3.0 million acres of 
hazardous fuels treatments and 1.6 million acres of landscape 
restoration. By the end of fiscal year 2007, federal agencies will have 
treated hazardous fuels on more than 21.5 million acres of our nation's 
forests and wooded rangelands since the beginning of fiscal year 2001, 
and will have restored an additional 5.1 million acres.
    I am especially proud this year of the strength and resourcefulness 
that Forest Service employees demonstrated during their involvement in 
the relief efforts following the many hurricanes of 2005. In the first 
four weeks after Katrina's landfall, Forest Service employees provided 
support to over 600,000 people affected by Katrina, distributing over 
2.7 million meals, 4 million gallons of water and 40 million pounds of 
ice. During peak response to Hurricanes Katrina and Rita, the Forest 
Service had 5,500 employees working in the affected region, and total 
Forest Service efforts represented over 250,000 personnel days. Forest 
Service employees provided a variety of critical services, including 
managing evacuation centers and base camps, providing logistical 
support, clearing roadways, and leading forest restoration efforts on 
both the private and public forest damaged by the storms.
    These efforts demonstrated the exceptional work ethic and ``can-
do'' attitude of Forest Service employees. At the Levi Strauss shelter 
in San Antonio, Red Cross worker Bill Martin reported that ``[Forest 
Service workers] do everything here . . . They aren't afraid of getting 
their hands dirty.'' At this shelter, Forest Service employees became 
known as the ``green pants.'' The nickname arose from evacuees who 
quickly learned that if they needed something done quickly or a 
question answered right away, they could get it from the men and women 
wearing the green pants of the Forest Service uniform. The commitment 
to service that Forest Service employees demonstrated during the 
hurricane relief efforts is the same commitment that sustains the 
health of our Nation's forests and grasslands.
    The National Forest System continues to provide benefits to the 
American public, including fresh water, flood regulation, carbon 
sequestration and recreation. 60 million people benefit from clean 
water provided by national forests and grasslands, and in 2005 the 
American people made over 200 million visits to the National forests 
and grasslands. These statistics underscore the importance of the 
National Forest System to the environmental infrastructure and natural 
heritage of the United States.
    The Forest Service accomplished all these tasks while 
simultaneously improving its organizational and financial management. 
In 2005 the Forest Service began its Business Operations Transformation 
Program, which will advance the efficiency of its technology, budget, 
finance and human resources operations, and is expected to save the 
agency $241 million in administrative operation costs over the next 
five years. As part of this effort, the Albuquerque Service Center 
became operational in 2005, and will create a centralized location for 
human resources and financial management operations.
    The Forest Service also achieved its fourth unqualified (``clean'') 
audit opinion in a row for FY 2005, continuing the agency's efforts to 
improve financial performance. Building upon these successes, the 
Forest Service will use improved financial information to drive results 
in key areas.
    The Forest Service faces many challenges as it enters a new era of 
natural resource management. The accomplishments of 2005 demonstrate 
the ability of the Forest Service to meet these challenges as the 
agency begins its second century of service.

                 FOREST SERVICE PRIORITIES FOR FY 2007

    In FY 2007 the Forest Service will continue its strategic focus on 
the following goals: restoring fire-adapted forests; providing 
sustainable recreation opportunities for the American people; reducing 
the impacts of invasive species; improving the health of our 
watersheds; and helping our nation meet its energy needs.
    In addition to these long-term strategic goals, the President's 
Budget provides increased support to Forest Service programs that 
improve forest health conditions, protect critical resources from 
catastrophic wildland fire, and help prevent the loss of open space. 
The President's Budget demonstrates that the Forest Service can use 
collaborative approaches and operate with renewed efficiency and 
accountability in order to reduce costs while accomplishing its 
mission. The Forest Service will achieve this by: 1) dealing 
strategically with threats to forest health; 2) expanding collaborative 
efforts; 3) increasing the efficiency of Forest Service programs; and 
4) improving organizational and financial management. Through these 
four strategies, the Forest Service will build on its past successes 
and advance its priorities for FY 2007.

            A STRATEGIC APPROACH TO RESTORING FOREST HEALTH

    The FY 2007 Budget continues the work of the Forest Service under 
the authorities of the President's Healthy Forests Initiative and the 
Healthy Forest Restoration Act (HFRA). These authorities have removed 
administrative process delays and expedited critical restoration 
projects so that the Forest Service can more effectively restore 
national forests and grasslands to a more fire adaptive environment.
    In 2005, the Forest Service treated 2.72 million acres of land to 
reduce hazardous fuels, with over 60 percent of those acres in the 
wildland-urban interface. The FY 2007 budget proposes $292 million for 
the treatment of hazardous fuels. Combined with other programs; the 
agency will treat as many as 3.2 million acres, with a majority of 
acres treated in the wildland-urban interface. Recent court decisions 
affecting our use of categorical exclusions to accomplish this work 
will have an effect on our ability to rapidly and efficiently treat 
these acres that are in need of fuels reduction. The Forest Service is 
also better integrating its hazardous fuels treatments with other 
vegetation management activities. The result is an additional 1.1 
million acres of hazardous fuels treated in 2005 as secondary benefits 
to other vegetation management activities.
    Hazardous fuels treatments, in turn, often have secondary benefits 
such as wildlife habitat improvement or watershed restoration.
    Another important tool for improving forest health is stewardship 
projects. These projects allow forest managers to more efficiently 
manage efforts to restore forest health through the use of one contract 
document authorizing the disposal of national forest system timber 
incidental to and in exchange for services to be performed on national 
forest system land. The President's budget will allow the Forest 
Service to award approximately 100,000 acres of stewardship projects in 
FY 2007, providing services such as noxious weed treatment, lake 
restoration, and harvesting biomass for energy use.
    In FY 2007 the Forest Service will continue to assist communities 
adjacent to National Forest land in the development of Community 
Wildfire Protection Plans (CWPPs). CWPPs enable communities to 
establish a localized definition of the wildland-urban interface in 
their area, and high-risk areas identified in a CWPP receive funding 
preference from the Forest Service. As of December 2005, at least 450 
CWPPs had been completed nationwide, covering at least 2,500 
communities at risk from wildfire
    In 2005, fires burned 8.6 million acres on Federal lands; the fire 
season was characterized by a continuiing drought and dry fuel 
conditions. Climate forecasts and estimates of fuel loads on our 
Nation's forests highlight the continued need for highly trained and 
efficient fire prevention and fire suppression programs. In order to 
maintain these programs, the President's Budget proposes a $56 million 
increase above the FY 2006 enacted amount for wildland fire 
suppression. This funding request equals the most recent 10-year 
average for suppression costs, which are on an upward trend.
    In 2005, the Forest Service continued its success in initial fires 
suppression, containing 99 percent of all unwanted fires. The 
President's Budget provides the preparedness funding needed to maintain 
this initial attack success rate. The development of an interagency 
fire managing planning and budget model to support cost effective 
allocation of preparedness resources is currently underway. The 
President's Budget provides additional incentives for reducing 
suppression costs by authorizing use of unobligated wildfire 
suppression funds for hazardous fuels treatment. This provides an 
incentive for line officers to reduce suppression expenses so they can 
have more resources to conduct hazardous fuels treatment. We are also 
committed to managing wildland fires for resource benefits or, as we 
also refer to it as, wildland fire use. This option is available to 
Federal agencies that have an approved land use plan and a fire 
management plan that allows for it. Our ability to manage naturally 
occurring fires in order to improve the health of fire dependent 
forests is increasing each year. The 2005 total of an additional 
251,000 acres was significantly higher than 2004 and we look forward to 
increasing our capability to use this important tool.
    These programs demonstrate the Forest Service's multi-faceted 
approach to restoring National forests and grasslands to a more fire 
adaptive environment.
    Through stewardship contracting, collaboration and community 
involvement, strategic treatment of hazardous fuels, and well-planned 
fire prevention and suppression, we are having a long-term impact on 
minimizing wildfire threats.
    The protection of forest health and open space is increasingly 
affected by the dynamics of a global timber market. Timber prices are 
now often set globally; the result has been a reduction in the private 
wood products infrastructure and divestment of timber companies from 
their timber land in the United States. These trends have altered the 
economic and environmental reality in which the Forest Service 
operates. The FY 2007 budget provides several strategies to deal with 
these realities.
    The sell-off of industrial timber lands opens up millions of acres 
to potential development, which in turns adds to the threat of the loss 
of open space. To counter these trends, the President's Budget requests 
$62 million for the Forest Legacy Program, which will protect an 
estimated 130,000 priority acres in FY 2007. The Forest Legacy Program 
works in concert with the cooperative efforts of other Federal, State 
and non-governmental organizations to assist private landowners sustain 
intact, working forests.
    The Forest Service's efforts to restore forest health are also 
affected by the global timber market. With the reduction in mill 
capacity and other related infrastructure, market conditions have 
created a more limited demand pool and led to higher costs for 
remaining purchasers, adversely affecting the financial feasibility of 
restoration work on our Nation's forests and grasslands. The FY 2007 
budget addresses this need by dedicating $5 million to foster markets 
in biomass utilization. Additionally, authorities of HFI/HFRA and 
stewardship contracting enable more efficient and effective 
partnerships with the local community in treating hazardous fuels, and 
promote investment in the local infrastructure to utilize timber.
    With greater exchange of global goods also comes greater transfer 
of invasive species. The FY 2007 budget provides over $94 million to 
Forest Service invasive species programs, allowing the agency to 
complete invasive species suppression, prevention and management on 
over 61,000 acres of Federal lands and 315,000 acres of state and 
private lands. These efforts involve enhanced collaboration with Forest 
Service partners to find and implement solutions to invasive species 
problems. In 2004 the Forest Service invasive species program underwent 
a program assessment rating tool (PART) evaluation. As a result of the 
assessment, new program performance measures based on a scientific or 
policy basis for validating agency actions were developed to more 
frequently update and utilize forest health risk maps for decision 
making and allocation of resources; and to provide for the measurement 
of the environmental and economic effects of invasive species 
treatments.
    An additional strategy for protecting forest health involves USDA's 
work to broaden the use of markets for ecosystem services through 
voluntary market mechanisms as announced by Secretary Johanns at the 
White House Conference on Cooperative Conservation. As part of this 
effort, Forest Service Research and Development will continue its work 
regarding the quantification of ecosystem services values.

                    INCREASED COLLABORATIVE EFFORTS

    The White House Conference on Cooperative Conservation, held in 
August 2005, marked an important milestone in the effort to expand and 
improve collaboration in natural resource management. The White House 
Conference underscored a clear lesson learned from the Forest Service 
Centennial--that the Forest Service has entered a new, more 
collaborative era of natural resource management. Many of the rules and 
laws governing the Forest Service were enacted at a time when the focus 
of the agency was on producing timber and mitigating adverse impacts in 
order to maintain other resource uses, such as recreation and habitat. 
Today we are focusing on improving forest health and promoting 
sustainable recreation. The rules and procedures created during the 
former era of resource extraction often slow down important restoration 
work during the current era of restoration. In order to work 
effectively in this new environment, the future of the Forest Service 
must be built on collaboration instead of top-down regulation.
    The new planning rule for the Forest Service creates a dynamic 
planning process that is less bureaucratic, emphasizes sound science, 
and encourages more public involvement earlier in the planning stages. 
We also expect that the new system of planning will be more strategic, 
transparent, timely and efficient. The planning process will be more 
effective because the rule requires annual evaluation of monitoring 
results and a comprehensive evaluation every 5 years. These evaluations 
will provide land managers with information to make necessary changes. 
The rule also requires establishment of an Environmental Management 
System, which focuses on continual improvement on each administrative 
unit. The new rule also requires opportunities for public involvement 
at four key stages in the planning process. Under the old planning 
rule, it usually took five to seven years to revise a 15-year land 
management plan; under the new rule, we expect that a plan revision 
will take from two to three years, saving the agency significant time 
and money.
    The new travel management rule, issued in November 2005, provides 
another example of successful cooperation resulting in effective rule 
making. In 2004, OHV users accounted for between 11 and 12 million 
visits to national forests and grasslands. While the Forest Service 
believes that OHVs are a legitimate use of the National Forest System, 
unmanaged OHV use has resulted in unplanned roads and trails, erosion, 
watershed and habitat degradation, and impacts to cultural resource 
sites. The 2005 travel management rule requires each national forest 
and grassland to designate the roads, trails and areas that will be 
open to motor vehicle use. Ranger districts and national forests will 
work with State and local governments and user groups to decide which 
routes and areas will be open to motor vehicle use. The Forest Service 
will engage the public so that travel management will be a cooperative 
process, which in turn will help increase compliance. The result will 
be greater protection for recreation resources without significant 
expenditures from Forest Service appropriations.
    In 2004 Congress approved the Federal Lands Recreation Enhancement 
Act, giving the Forest Service a 10-year authority to reinvest a 
portion of collected recreation fees to enhance local recreation 
opportunities and improve wildlife habitat in the area. The Act also 
directed the creation of recreation advisory committees that will 
provide public involvement and comment on recreation fee programs. The 
recreation advisory committees are another example of the Forest 
Service's continued commitment to improving its effectiveness and 
efficiency through increased public involvement and cooperation. I want 
to thank Congress for providing the Forest Service with this new and 
effective tool for cooperative conservation.
    A final example of collaboration includes working closely with the 
Bureau of Land Management in the energy permitting process. The Energy 
Policy Act of 2005 allows the BLM and the Forest Service to develop 
interagency agreements to support established BLM pilot offices 
designed to streamline the oil and gas permitting process on federal 
lands. These agreements will be used to reduce the backlog of oil and 
gas applications for permit to drill and improve the inspection and 
enforcement processes. This realignment will increase the resources 
available to process energy permit applications, resulting in a more 
effective permitting process.
    The Partnership Enhancement Act, currently under review by 
Congress, is an additional proposal that would advance the flexibility 
and effectiveness of the Forest Service. The Partnership Enhancement 
Act will clarify and simplify the Forest Service's legal authority to 
enter into mutual benefit agreements with a wide variety of 
collaborators. This Act would expand the Forest Service's ability to 
engage in cooperative agreements with the local community and other 
interested parties.

           INCREASE THE EFFICIENCY OF FOREST SERVICE PROGRAMS

    The President's Budget reflects continued implementation of the 
Forest Service's vision as a ``Center of Excellence in Government'' in 
which it will be viewed as a model agency recognized for efficiently 
delivering its services. The Budget continues reforms that will 
streamline the Forest Service's organization, improve accountability, 
and focus on measurable results. The Budget reduces indirect costs to 
$461 million, and reflects completion of organizational efficiency 
studies that will lead to savings in FY 2008 and beyond. The Budget 
further reflects a continuing emphasis on Forest Service performance 
and accountability by including two new performance measures for the 
National Forest System: (1) the use of volume sold as an annual output 
measure for forest products and (2) an annual efficiency measure 
consisting of the ratio of total receipts for each activity to the 
obligations for each respective activity that generates those receipts. 
These reforms will foster a greater focus on results; lead to improved 
decisions based on performance; and enhance accountability through the 
use of more readily available and better quality performance 
information.
    Through the President's Budget the Forest Service will continue to 
make use of valuable authorities that Congress has recently made 
available to the agency, and the Forest Service will continue its 
efforts to increase program efficiency. With the provisions of the 
Forest Service Facilities Realignment and Enhancement Act, the Forest 
Service is reducing its administrative site maintenance backlog and 
improving efficiency in its land management program. This new authority 
provides a necessary incentive to identify and maintain needed 
facilities while streamlining facility holdings that reflect a bygone 
era of forest management. In FY 2006, we anticipate $37 million in 
receipts from this conveyance authority and we will be initiating over 
100 administrative site conveyances with projected receipts of over $77 
million by FY 2009. In short, the new authority enables the Forest 
Service to accomplish more with its Capital Improvement and Maintenance 
funds, while also decreasing the deferred maintenance backlog by 
removing unneeded facilities and producing additional funds to enhance 
mission-critical ones. In FY 2007, the Forest Service will continue to 
implement the FY 2006 changes to Knutson-Vandenberg (K-V) authority, 
which allow the Forest Service more flexibility in the expenditure of 
K-V funds. Consistent with OMB direction to offset increases in 
mandatory spending, the agency has issued direction to the field to 
increase collections into the National Forest Fund to offset the 
increase in the K-V program. I would like to express my appreciation 
for support that this Subcommittee has giver the Forest Service in 
improving these authorities.
    Providing high quality recreation opportunities on the National 
forests and grasslands is of great importance to the Forest Service. 
National forests and grasslands received over 200 million visits 
occurring in 2005. The Agency is developing a programmatic plan called, 
``the capacity-building model for sustainable recreation,'' that will 
identify ways to build capacity to meet increasing demand. Tools will 
include partnership development, volunteerism, recreation fee revenues, 
improved business practices, and prioritization of recreation facility 
assets. Specific actions in 2007 will include completion of recreation 
facility master planning to prioritize facility assets; completion of a 
feasibility study on retention of recreation special use fees; 
continued implementation of the Federal Lands Recreation Enhancement 
Act; collaborating with private sector partners to create a web site on 
improved business practices, including use of grant resources and 
volunteerism; and completing a skills assessment to enhance business 
and financial skills.
    In 2005 the recreation program PART assessment was conducted. As a 
result of this assessment we are taking actions to improve the 
recreation program performance, including updated performance measures 
connecting recreation program performance with achievement of the 
strategic goals; taking measures to improve visitor satisfaction and 
completing recreation business plans for each of the National Forest 
and Grasslands.
    The President's budget reflects the efforts of Forest Service 
Research and Development (R&D) to improve research programs while also 
advancing deficit reduction goals. To do this, R&D is expanding 
collaborative and coalition building efforts, focusing funding on 
research with external partners, and aligning research projects along 
strategic program areas.
    R&D is hosting two ``Outlook Workshops'' on future forestry 
research with non-governmental organizations (NGO's), government 
partners, academia and industry to encourage a common research agenda 
for all sectors of forestry research. In January 2006, R&D participated 
in a summit for Deans from U.S. forestry programs to lay plans for a 
common research agenda. The Forest Service will also continue to 
support the larger research community through the Forest Inventory 
Analysis (FIA). The FIA is the Nation's only forest census, and it has 
been tracking the conditions of America's forests for roughly 75 years. 
The President's Budget funds the FIA program at a level that will allow 
the program to cover 93 percent of the nation's forests with an annual 
inventory.
    R&D is also refocusing its research dollars, further increasing 
R&D's support of external and collaborative research efforts from 13 
percent of the R&D budget to 20 percent over the next five years. 
Finally, R&D is reorganizing its research along strategic programs 
areas, so the Agency can best produce the research that supports 
current priorities. Along these lines, the President's Budget allocates 
$1.5 million to research on the value of ecosystem services; $3.5 
million to research on biomass markets and utilization; and includes 
funding for the reorganization of the Forest Products Lab, so the Lab 
can better focus on research that increases the utilization value of 
wood products, particularly in the areas of biomass, small diameter 
utilization, and energy and biofuels production from biomass. Through 
these efforts, the science produced by Research & Development will 
continue to be the foundation for effective Forest Service programs.

           IMPROVING ORGANIZATIONAL AND FINANCIAL MANAGEMENT

    In support of the President's Management Agenda, the FY 2007 budget 
continues the Forest Service's efforts to improve organizational and 
financial management. The Forest Service's Business Operations 
Transformation Program is improving the overall efficiency of the 
Forest Service's administrative operations and increasing the Agency's 
ability to redirect funds from indirect costs to mission delivery. The 
Albuquerque Service Center successfully opened this past year, bringing 
nearly 400 employees to a consolidated budget and finance center that 
will better serve the needs of Forest Service internal and external 
customers. During the next five years, the Business Operations 
Transformation Program is estimated to result in $241 million in 
savings for the Forest Service.
    The centralization of Forest Service budget and finance will also 
create greater transparency, accountability and efficiency in the 
agency's financial management. The Forest Service continues to improve 
its financial management, as evidenced by the Agency's 4th consecutive 
unqualified (``clean'') audit in 2005. Building upon these successes, 
the Forest Service will use improved financial information to drive 
results in key areas.
    The President's Budget also continues support for the Forest 
Service Competitive Sourcing program, and focuses on proper and timely 
implementation of completed competitive sourcing studies and rigorous 
analysis of the studies' results and savings.
    In FY 2007 the Forest Service will continue its work in Budget and 
Performance Integration through implementation of its strategic plan, 
Performance Accountability System, and by making effective use of the 
Program Assessment Rating Tool (PART). The Forest Service Strategic 
Plan helps the Agency and its field units develop programs of work that 
address natural resource needs while maximizing limited resources and 
improving performance accountability. The Strategic Plan will be 
revised in FY 2006 to reflect the latest needs and resources of the 
agency.
    Through the PAS, the Forest Service is integrating existing data 
sources so that timely, consistent and credible performance information 
will be available for project and program managers as well as external 
customers. In addition, PART efforts will ensure that the Agency's 
activities are aligned with its strategic plan. Thus far the Forest 
Service has used PART to evaluate the following programs: Wildland Fire 
Management, Capital Improvement & Maintenance, Forest Legacy, Invasive 
Species, Land Acquisition, Recreation and Energy. These assessments 
have resulted in development of improved performance measures to better 
track accomplishments and increase accountability and better 
integration of strategic goals with program accomplishments. For the FY 
2008 budget process, the Forest Service will complete a PART analysis 
of mission-support activities and programs aimed at improving watershed 
quality, and will reassess Wildland Fire and Invasive Species. Results 
from the PART process have been, and will continue to be, used to 
improve program management and develop better performance measures.

                               CONCLUSION

    The FY 2007 Budget reflects the President's commitment to providing 
the critical resources needed for our Nation's highest priorities. The 
FY 2007 budget responds to the national need for deficit reduction 
while preparing the Forest Service for a new, more collaborative, era 
of natural resource management. With this budget the Forest Service 
will continue to identify and support more efficient and effective 
methods of pursuing its mission. This will be accomplished through 
increased collaboration, the use of new legislative authorities, 
expanded program efficiencies and improved organizational and financial 
management. Through these efforts the Forest Service will continue to 
sustain the health and productivity of the Nation's forests and 
grasslands.
    Thank you for this opportunity to discuss the President's Budget. I 
look forward to working with you to implement our FY 2007 program, and 
I'm happy to answer any questions that you may have.

    The Chairman. Thank you very much, Chief. Now, we'll take 
Mark. Please proceed, Mr. Secretary.

        STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL 
           RESOURCES AND ENVIRONMENT, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. I'd like to spend my time 
today talking about our proposal to re-authorize for five 
additional years the Secure Rural Schools legislation of 2000. 
That legislation's authorization expires at the end of this 
year, absent any congressional action.
    The 2000 legislation was designed to secure three 
transitions that needed to occur. One was to allow the counties 
involved time to transition away from heavy dependence on 
Federal timber sale receipts. The second was to give the Forest 
Service and the Bureau of Land Management time to stabilize 
their timber sale program, which was beset by appeals and 
litigation in the 1980's and 1990's. The third provided a 
transition period to improve intergovernmental relationships 
between the Forest Service and BLM and local governments and 
local groups.
    In our judgment, the second and third of those transitions 
are now nearly complete. Our receipts program has stabilized 
and is increasing slightly. It's reaching levels now that it 
reached in the early 1970's. The third transition has also been 
completed. The resource advisory committees have done a lot of 
work in improving our relationships with local governments and 
local groups, investing some $36 million annually in habitat 
improvement and restoration projects and encouraging 
volunteerism in management of the national forest. We would 
tend to want to keep the resource advisory committees whether 
or not the legislation is re-authorized by Congress.
    The first transition, however, is not complete. While some 
counties have diversified their economies, some clearly 
haven't. So, in light of that, what we are recommending is a 5-
year re-authorization with payments phasing down over the 
course of that 5-year time period to give those counties that 
haven't had the opportunity to adjust an additional time period 
in making that adjustment. We would fund that re-authorization 
from a one-time land sale of tracts that have been identified 
using criteria in each of our national forest plans as 
isolated, difficult, and expensive to manage and no longer 
meeting National Forest System needs. A preliminary list of 
such sites involved a little over 300,000 acres, or less than 
two-tenths of 1 percent of the National Forest System, 
involving 2,900 parcels in 31 States. The legal descriptions of 
the entire list went live on the Forest Service website on 
February 10. Today, individual national forest maps, a few of 
which I have here to share with you, will go up on the website 
and in the Federal Register, and we will announce a 30-day 
comment period to allow the public to give us comments on the 
list.
    All told, to present this proposal to you, it'll take 
roughly a month's worth of work and about $50,000. So it hasn't 
been a major distraction or an allocation of effort because 
much of the work was already done through the criteria in the 
national forest plans. We appreciate in making this proposal 
that land sales are a very sensitive proposition. As we put 
this proposal together, we looked back across the last 2\1/2\ 
decades at land sale proposals, both those which were adopted 
by Congress, like the Southern Nevada Land Act of 1998 or the 
Educational Land Grant Act of 2000--both of which were reported 
by this committee--as well as those land sales which weren't 
supported by Congress. What we discovered is that if you looked 
at the ones that were supported, they all shared three 
characteristics. One was precision, two was transparency, and 
three was a broadly agreed upon public purpose. Precision is 
important because everybody needs to know exactly what's being 
talked about. Nobody wants vagueness in the sense that you want 
to know exactly what's going to be sold at what price. 
Transparency is important because everybody wants an 
opportunity to talk about it. You can't put one of these 
proposals in a conference report at the last minute and expect 
that it will sail through. Finally, broad public purpose is 
important because the sales that were supported by Congress had 
proceeds going to a purpose that was broadly supported and not 
just simply deficit reduction.
    We think, in trying to craft this proposal, that we're 
responsive to those three characteristics. We're going to be 
presenting the Congress with the exact list of all of the 
tracts involved. We probably don't need to sell 300,000 acres 
to make $800 million, which is the offset we're seeking. 
Probably somewhere around half of that or slightly more will do 
the job, so we have the latitude and the flexibility over the 
next 30 days as comments come in to modify that list. Of 
course, you'll have the opportunity to modify it should you 
choose to take that opportunity. I think transparency is met by 
the fact that we're putting it forward as part of our budget 
without any pretense or pretext.
    Finally, I think, based on your comments already, we share 
a general view that re-authorization of the Secure Rural 
Schools legislation is an important public purpose that both 
the administration and Congress agree should be met. We also 
would urge you to look at this proposal in a larger context. As 
I said, it will require us to sell probably one-tenth of 1 
percent of the National Forest System at the same time that 
we're adding ecologically sensitive lands that do meet National 
Forest System needs on an annual basis. Indeed, based on our 
rate of land acquisition, this proposal would be netted out in 
less than 2 years' time.
    So, we expect that we'll get lots of comments; hopefully, 
comments that are specific to individual areas that people 
believe should or shouldn't be on the list. We've already 
received a number of comments already in the month that the 
proposal's been part of the public discourse. As a consequence 
of those comments, we're making some changes in the proposal 
even before sending it to you. For instance, we have been 
informed by people that even if they accept the proposition 
that these tracts no longer meet National Forest System needs, 
that's not the same as saying they no longer meet public needs.
    Indeed, there are some isolated tracts where in the past 
we've given county governments a special use permit to put a 
picnic site on an isolated tract of national forest land 
because that tract happened to be accessible to a major roadway 
with a lot of recreational traffic. So, one of the things we'll 
be doing in this proposal which we'll be sending you is 
including language that gives State or local governments or 
land trusts the right of first refusal to acquire these tracts 
at the appraised value before we put them up for private 
auction. That's one way to secure whatever public benefits 
there may be even though they're not National Forest System 
benefits. I dare say that as the public comments on this list, 
some tracts will be added and some will certainly drop, and 
we'll be responsive to those comments.
    One of the most surprising and unanticipated developments 
so far is the unexpected support for Forest Service management 
that's emerged from groups that are usually critical of the 
Forest Service as they've had the opportunity to comment on 
this proposal.
    So, we hope that you'll take a look at the legislation when 
we send it forward here in the next couple of days. We think 
this is a reasonable offset to use to support a piece of 
legislation that does need to be re-authorized, which is 
something that I think we'd all agree on. Thank you very much.
    [The prepared statement of Mr. Rey follows:]

Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture

                                OVERVIEW

    Mr. Chairman, members of the Committee, thank you for the 
opportunity to discuss the President's Fiscal Year 2007 Budget for the 
Forest Service. I am pleased to join Dale Bosworth, Chief of the Forest 
Service, at this hearing today.
    In my testimony, I will discuss two main issues. First, I will 
focus on the proposal in the President's Budget to continue funding for 
an amended Secure Rural Schools and Community Self Determination Act. 
Second, I will discuss the increased funding for the Northwest Forest 
Plan that is requested in the Fiscal Year (FY) 2007 budget, which will 
promote improved forest health and more robust forest products 
economies in the Pacific Northwest.

     CONTINUING TRANSITIONAL SUPPORT TO RURAL COMMUNITIES THROUGH 
                      THE SECURE RURAL SCHOOLS ACT

    The Secure Rural Schools and Community Self-Determination Act of 
2000 (P.L. 106-393) was enacted to provide transitional assistance to 
rural counties that had been affected by the decline in revenue from 
timber harvests on Federal lands. These counties traditionally relied 
on a share of receipts from timber harvests to fund their school 
systems and roads. The funding provided by the Act has been used to 
provide over 4,400 rural schools with critical funding and has 
addressed severe maintenance backlogs for county roads. Resource 
Advisory Committees (RACs) established under the act have developed and 
proposed forest health improvement projects. A recent study by the 
Sierra Institute for Community and Environment, Assessment of the 
Secure Rural Schools and Community Self-Determination Act--Dr. Jonathan 
Kusel (January 2006), on the effectiveness of RACs under title II and 
community programs under title III of the Act was encouraging.
    Each year the level of interaction between RACs, local governments, 
and citizens has increased, resulting in broader support and 
understanding of our mission. Additionally, funding for title III has 
also been used to complete community wildfire protection plans which 
are necessary to efficiently plan protection strategies for our rural 
communities.
    The last payment authorized under the Act would be made in Fiscal 
Year 2007 based on timber and other receipt levels for Fiscal Year 
2006. The Administration is committed to provide transitional 
assistance to counties and States covered under the Secure Rural 
Schools Act. The Department of Agriculture has worked hard to find the 
offsets needed to temporarily, while targeting and gradually phasing 
out, this assistance.
    Our legislative proposal described in the President's fiscal year 
2007 Budget for the Forest Service would amend the Act. The legislation 
would provide a source of funding for payments under the Secure Rural 
Schools Act by authorizing the sale of certain National Forest System 
lands. These parcels meet criteria identified in existing Forest Land 
Management plans as potentially suitable for conveyance. Many of these 
lands are isolated from other contiguous National Forest System lands, 
and because of their location, size or configuration are not efficient 
to manage as a component of the National Forest system. Isolated tracts 
can be expensive to manage because of boundary management and 
encroachment resolution costs. The sale of these lands will not 
compromise the health or integrity of the National Forest System; 
instead, it will allow the agency to consolidate federal ownership and 
reduce management costs.
    The legislation would authorize to the Secretary of Agriculture to 
sell an adequate amount of National Forest land to fund an $800 million 
dollar account that would be used to make Secure Rural Schools Act 
payments over a five year period. For each fiscal year, the legislation 
identifies a specific amount from the account that may be used to make 
the payments. Payments from the land sales fund will be adjusted 
downwards and eventually phased out. This adjustment recognizes that 
the Secure Rural Schools Act provided transitional assistance to rural 
communities adapting to a changing timber economy and a changing 
federal role in resource extraction.
    Funds from the land sales account would be in addition to payments 
to the States from annual timber and other receipts on National Forests 
and BLM lands. For administrative purposes, the Secretary of 
Agriculture would also make the supplemental payments from this account 
for Bureau of Land Management O&C lands. Payments will continue to be 
targeted to the most affected areas. Timber receipts are expected to 
rise over the next five years, which should further help in reducing 
the impact of the payment phase-out.
    Since payments under the Secure Rural Schools Act began in 2001, 
the affected economies have made important strides in economic 
diversification and are now less dependent on federal timber receipts. 
In addition, the Forest Service has reestablished itself as a catalyst 
for economic development by conducting hazardous fuels treatments that 
can result in a market in forest biomass. Timber receipts are also on 
the rise as the ``timber wars'' have transitioned into a new era of 
cooperative conservation. By selling isolated federal lands, we will 
further contribute to diversified rural government funding.
    When the federal lands are sold and become private property, they 
will be added to the county tax rolls, providing a sustainable funding 
source for local governments. All of these factors combine into a 
unified plan to promote robust local economies and reduce the 
dependence of county governments on direct federal assistance.
    The Administration remains committed to acquiring environmentally 
sensitive lands and protecting them from development. This commitment 
is reflected in the President's request for a $5 million increase in 
funding for the Forest Legacy program, which will protect an estimated 
130,000 priority acres in FY2007 through the purchase of conservation 
easements or fee simple title. In addition, our land acquisition 
program and land exchange program has been adding about 100,000 acres 
per year to the National Forest System for the last several years. By 
selling lands that are inefficient to manage or are isolated with 
limited ecological values and purchasing critical, environmentally 
sensitive lands, the Forest Service will maintain the integrity of the 
National Forest System while funding payments under the Act in a 
fiscally responsible manner.

             INCREASED FUNDING OF THE NORTHWEST FOREST PLAN

    The 2007 Budget also reflects the President's commitment to 
sustainable forestry in the Pacific Northwest through increased funding 
for the 1994 Northwest Forest Plan Amendments. The Northwest Forest 
Plan affects the management and administration of 24.5 million acres of 
Federal land, of which 19.4 million are managed by the Forest Service 
within 19 national forests in western Oregon, western Washington, and 
northern California. The Northwest Forest Plan was designed to produce 
a predictable and sustainable level of timber sales while protecting 
the long-term health of forests, wildlife and waterways of the region. 
The Plan has succeeded in meeting its environmental goals. A 2004 
Forest Service review of the first 10 years of the Northwest Forest 
Plan found that the net gain in older forests since 1994 was between 
1.25 and 1.5 million acres, over twice the 600,000 acres expected 
during the first decade of the plan.
    The 2004 review found that the Plan has not been successful at 
providing a predictable level of timber and nontimber resources. In 
order to recognize the needs of all parties affected by the Northwest 
Forest Plan, the President's budget increases funding for the Plan by 
$66 million, with $41 million for forest products, $6 million for 
hazardous fuels treatment, and the remaining $19 million for assorted 
ecosystem management programs. This level of funding allows the Forest 
Service to offer in 2007 the Plan's goal of 800 million board feet of 
timber per year.
    The economies of the Pacific Northwest have experienced marked 
change over the past 15-20 years. The region went from harvesting 10 
billion board feet of timber in 1990 to 136 million board feet in 2000, 
and the forest economies of the region have suffered from the lack of a 
predictable timber supply. The goal of the Administration is not to 
return to the peak levels of timber production; instead, the FY 2007 
budget provides for a sustainable, predictable level of timber harvest 
that also protects forest health. The current forest products economy 
offers great opportunities for businesses able to use new technologies 
and tap into expanding markets for new products.
    With a predictable timber supply established, the Pacific Northwest 
will be better equipped to adapt and succeed in the changing forest 
products market.
    One of the best examples of new opportunities in forest products is 
the rapidly expanding market for wood pellets as a fuel source. The 
demand for wood pellets for commercial and home heating has boomed as 
Americans face higher heating costs from traditional sources. Wood 
pellets suppliers have reported shortages from New Mexico to Rhode 
Island. Pellet producers, such as Forest Energy Corporation in Show 
Low, Arizona, are running their processing mills 24 hours a day and 
seven days a week to try and meet demand. In making the wood pellets, 
Forest Energy Corporation uses the small-diameter wood produced from 
hazardous fuels treatments in Arizona's national forests. Expanded 
funding for the Northwest Forest Plan will create similar win/win 
situations in which both sustainably harvested timber and the 
byproducts from hazardous fuels treatments are used to meet the growing 
demand for forest products.
    In addition to meeting the Northwest Forest Plan's timber targets, 
the Forest Service will improve over 3900 acres of terrestrial wildlife 
habitat and 120 miles of fisheries habitat in FY 2007. The Forest 
Service has developed a comprehensive strategy for aquatic restoration 
within the Northwest Plan area to restore priority watersheds.
    The President's Budget also enables the Forest Service to continue 
to emphasize the treatment of hazardous fuels in the wildland-urban 
interface and address the reforestation needs of recent large forest 
fires. With the expanded NWFP funding, the agency will continue to 
emphasize partnerships and integrated projects to protect municipal 
watersheds, recover habitat for endangered and sensitive species, and 
control the spread of invasive species.
    The 2007 President's Budget provides $610 million to continue 
implementation of the Healthy Forests Initiative, to reduce hazardous 
fuels and restore forest health. The budget proposal, more than a $12 
million increase over 2006, takes an integrated approach to reducing 
hazardous fuels and restoring forest and rangeland health. Along with 
$301 million to the Department of Interior (DOI), the FY2007 budget 
provides a total of $913 million to implement the Healthy Forest 
Initiative and the Healthy Forest Restoration Act.
    Through the continuation of the Secure Rural Schools Act and 
through expanded funding of the Northwest Forest Plan, the President's 
Budget promotes sustainable rural communities and the expansion of a 
forest products economy that is compatible with improved forest health. 
These efforts, in combination with the President's continued support of 
the Healthy Forest Initiative, highlight the Forest Service's 
commitment to managing the nation's forests and grasslands with greater 
innovation and renewed efficiency. I look forward to working with 
Congress to enact the President's FY 2007 budget.
    Finally, today I would also like to announce our plan for 
establishing a number of advisory committees and councils throughout 
the country to afford communities and citizens the opportunity to 
provide input into the recreation fee program as prescribed in the 
Federal Lands Recreation Enhancement Act (REA) which was enacted into 
law as part of the 2005 Consolidated Appropriations bill.
    In conjunction with the Department of the Interior's Bureau of Land 
Management (BLM) we will work with existing BLM Advisory Councils in 
seven western states (Idaho, Montana, Utah, Nevada, Colorado, Arizona, 
and New Mexico) to jointly use the seventeen existing councils in those 
states to provide a forum for public involvement in the recreation fee 
program for both agencies.
    In addition, we will establish six new Recreation Resource Advisory 
Committees (RRACs) covering the Northeastern US, Southeastern US, the 
States of Oregon and Washington, California, Alaska and Nebraska. With 
the exception of the State of Alaska, these new committees will be 
established in association with the BLM.
    We look forward to working jointly with the BLM to provide ample 
opportunities for citizens, communities and local governments to have 
an opportunity to present input on how the recreation fee program is 
administered in our respective agencies. We see this as a great 
opportunity to build support and understanding for the recreation fee 
program as well as provide an important communication link between 
government and the public. Thank you for your continued support of this 
program.
    At this time I would be pleased to answer any questions.

    The Chairman. Thank you very much. Now we we'll proceed 
with--Senator Bingaman since you had an opening statement, our 
side was next--Mr. Thomas.
    Senator Thomas. Well, thank you, gentlemen. I appreciate 
your comments. Obviously, there's a lot of reaction to the sale 
thing, Mark, that you mentioned, but most of us don't 
understand exactly what's involved yet, so that will be very 
useful. Let me go back to a couple of things. The budget 
includes $66 million to fully fund the Northwest Forest Plan. 
That's a great thing to do. However, I'm concerned that that 
funding is at the expense of other national forests. Several in 
Wyoming have just completed their forest revisions. Those plans 
are not being fully implemented. How do you justify 
dramatically increasing funding in the Northwest while you 
leave the other forest plans out?
    Mr. Rey. What you're seeing in the forest management 
account, as well as in the hazardous fuels accounts, are 
increases in virtually all the regions. So, we don't believe 
any other region is suffering as a consequence of the decision 
to try to fully fund the Northwest Forest Plan. In the Pacific 
Northwest, the Northwest Forest Plan, which was developed by my 
predecessor, resulted in a very significant reduction in what 
were the timber sales levels at that time; the Northwest Forest 
Plan essentially calls for about one-seventh of what was the 
historic sales program. So, in that region, they dropped as 
dramatically or more dramatically than anywhere else. What 
we've tried to do is redeem a commitment made by our 
predecessors to fully fund that plan so at least that 
relatively lower level of harvest can be reached, while making 
sure that decision is not coming at the disadvantage of any 
other region, because those regions are showing increases as 
well.
    Senator Thomas. Yes, thank you. Fully funded is a little 
different than increases, however, and so I think that's some 
difficulty there in justifying that into the others. The 
proposal includes $26 million for land acquisition. Why are you 
purchasing additional land when you are also recognizing that 
you need to dispose of some?
    Mr. Rey. The reason is that the kinds of lands we're 
talking about in each proposal are very different. The lands 
that we're proposing to dispose of are isolated tracts that no 
longer meet National Forest System needs. The lands that we 
would propose to acquire are lands that have high levels of 
ecological value and are acquisitions that will allow us to 
block up places where we'd like to have coherent land ownership 
to achieve broader land management objectives.
    Senator Thomas. Is there satisfactory funding or adequate 
funding to recover in the delisting of endangered species? That 
seems to be dragging along, and we seem to always have a 
shortage of resources there. And yet, this has strung on a very 
long time. Is this an adequately funded program now to get the 
job done?
    Mr. Bosworth. My belief is that where we have species that 
we believe have recovered, species like the Yellowstone grizzly 
bear, that we do have adequate funding to do the work that 
needs to be done to develop conservation strategies. A lot of 
that is working very closely with the Fish and Wildlife 
Service, and with the States. I believe that we can move 
forward with the proposed funding.
    Senator Thomas. Well, I hope so, because that hasn't been 
the case. You talked about grizzly bears. We've passed the 
numbers for 15 years, and they're still not delisted.
    Mr. Bosworth. I agree with you that it's taken a long time 
to get there. I don't think it's a funding issue as much as it 
is a red-tape-process issue.
    Senator Thomas. Yes, I understand, and I realize that the 
Fish and Wildlife Service is a major player here in this thing, 
but it does have some difficulty. The Healthy Forests 
Restoration Act contains a pre-decisional objective process and 
a streamlined judicial review process, both of which are 
designed to increase efficiency. How well are these processes 
working? Do you have a monitoring plan to demonstrate whether 
they're working or not working?
    Mr. Bosworth. The tools that we got through the Healthy 
Forests Restoration Act and the Healthy Forests Initiative are 
working very well in my view, some working better than others. 
Some of the categorical exclusions that we used for a period of 
time allowed us to get decisions made much quicker and work 
done on the ground. In some cases, however, that tool has been 
affected by a court decision. We also are using stewardship 
contracting--we got the authority to do that under the Healthy 
Forests Restoration Act. We have 210 projects in stewardship 
contracting; those are working very well, and we intend to 
increase the use of those. It's a more complex program, so it's 
taken a little bit longer to fully implement, but we are moving 
forward with that as well. So, there are a number of tools and 
opportunities that we're picking up on, that's why we've been 
able to exceed our targets in fuels treatment each year.
    Senator Thomas. Good. Thank you. Well, I certainly don't 
have any particular objection to a reduction of 2 percent, but 
we have to be doing that over the whole budget. I think we need 
to make sure we allocate these things fairly among the various 
forests. Thank you very much. I'll stop there.
    Senator Bingaman. Let me ask just a few questions, if I 
could. This community forest restoration program is something 
that we enacted a few years ago. My understanding is that for 
the first time since it was started, this is proposed for zero 
funding in the budget. It's a very small program, $5 million, 
but it's been one of the most successful forest restoration 
programs that we've seen. Is there a reason why we didn't fund 
it in this bill?
    Mr. Rey. The funding is going to be part of the overall 
funding devoted to the Healthy Forests Restoration Act, so 
we're planning to allocate the usual $5 million or so to this 
program.
    Senator Bingaman. Okay, thank you. I appreciate that. Let 
me ask about State Fire Assistance. The President's budget 
proposes a 30 percent cut in the Forest Service State Fire 
Assistance Program. And as I understand it, the budget would 
terminate the Department of the Interior's Fire Assistance 
Program altogether. It proposes a 55 percent cut to the 
Department of Homeland Security's Fire Assistance Grant 
Program. The Forest Service budget justification admits this 
program serves ``an important goal of the national fire plan'' 
and ``is critical to protecting communities and resources from 
catastrophic wildland fires.'' Can you explain or tell me 
whether there's been a coordination between the Department of 
the Interior and Homeland Security in the decision that you've 
made to cut this program, and what are the policies that 
justify it? As I've indicated in my opening statements, the 
concern about catastrophic wildland fire is greater this year 
in my State than I can remember it being, because of the 
drought, and it seems that these are wrong-headed cuts.
    Mr. Rey. First, I can tell you that we have coordinated the 
decisionmaking with the Department of the Interior, as we do 
across all of the wildland fire accounts. That may not make you 
any happier with the decision, but it was taken together with 
our Interior agencies. We did not coordinate with the 
Department of Homeland Security. However, most of their 
assistance goes to urban first-responders. They're not very 
large in the wildland fire business.
    Most of our assistance goes to wildland firefighting. As we 
looked across the wildland fire accounts, one thing that was 
very glaring is that we were going to have to budget 
substantially more for suppression, given the circumstances 
that you've described in the Southwest and elsewhere and given 
the increase in the 10-year average and suppression.
    So, a substantial increase is shown in our suppression 
budget for this year. And in tight budget circumstances, you 
have to make tough choices. We didn't think we could short 
suppression, because that would mean that we would be falling 
short of our obligations for wildland firefighting on Federal 
lands. We also put a slight increase in there for volunteer 
fire assistance, because the volunteer programs have been more 
underfunded relative to the State programs in previous years. 
So, I guess all I can say is we did look at this together with 
our Interior Department colleagues and made some tough choices 
in a tight budget environment.
    Senator Bingaman. Let me ask about the budget proposal with 
regard to the processing of mineral applications. We have a lot 
more leasing going on in the West. I know in Wyoming, Senator 
Thomas has seen a lot of that. We see a lot of it in our State. 
I think that's important in meeting our energy needs. The 
proposal you have is to increase funding for processing of 
mineral applications, but at the same time, cutting by 70 
percent the funds for environmental compliance. The BLM 
environmental compliance program has been woefully understaffed 
and underfunded. I guess I'm concerned that by cutting its 
compliance program, the Forest Service will find itself in the 
same circumstance. Do you have a justification or explanation 
for why we would be cutting the environmental compliance 
program by 70 percent?
    Mr. Bosworth. In terms of the whole minerals, oil and gas 
program, what we're trying to do is work much more closely with 
the Department of the Interior and the Bureau of Land 
Management to leverage our resources in a more effective way to 
accomplish the environmental compliance as well as to do away 
with the backlog of permit applications. In addition to that, 
we're--as I said in my testimony, we're reducing our indirect 
costs significantly so we can take more of those dollars and 
apply those to the work on the ground. So, my belief is that 
when you take the aggregate of working together more closely 
with the Bureau of Land Management and the cost efficiencies 
that we'll have in place, we'll be able to do an adequate job 
of environmental compliance as well as remove the backlog that 
we have.
    Senator Bingaman. I think my time's up, Mr. Chairman. Thank 
you.
    The Chairman. Thank you. I will ask a few questions and 
make a few comments.
    Senator Murkowski, you're after--you follow after I do 
mine.
    First, thank you for your testimony. I understand how 
difficult it is when you're given the budget targets that 
you've been given. I know this Department has been given a 
smaller cut than many of the others, 2\1/2\ percent, but still, 
it's a very difficult one. So, I'd like to ask a couple of 
questions that cause me to wonder. Can you help me understand 
why you're recommending, for instance, selling 1.5 percent of 
the Forest Service lands in the State of Missouri, a State that 
only gets about $2.6 million in payments, while you have 
recommended to sell .06 percent of the land in Oregon, a State 
that will get over $260 million a year in payments?
    Mr. Rey. The land sales were proposals developed on the 
basis of where we had tracts of land that met the 
characteristics of being isolated, difficult and expensive to 
manage, and no longer meeting National Forest System needs. We 
own some of those tracts, you know, as much as a result of an 
accident of history as anything else. They are not evenly 
distributed throughout the National Forest System. In fact, 
their distribution is relatively irregular. Those sales are 
going to meet a national need. That is the----
    The Chairman. I understand.
    Mr. Rey. Yes, okay.
    The Chairman. I think I make the point because we have a 
Senator here. He's got a vote. He's going to look at this and 
say, does this look neat, Oregon gets $260 million dollars a 
year, and I'm going to get $2.6 million, and more of my land's 
being sold than theirs. It's not going to be so easy if we 
don't have something else in this mix besides what you have 
decided your formula for distribution would be. I thank you.
    Senator Talent. Mr. Chairman, thank you for anticipating my 
question. I appreciate that.
    Mr. Rey. I think that the other thing I would have said is 
that the formula for funding is obviously one that we'll visit 
with the committee on as we get into the re-authorization. The 
previous formula may be justified with some adjustments.
    The Chairman. The road maintenance funding has decreased by 
over 50 percent over the last 5 years, according to what my 
staff tells me, and I see that the transportation plans for ORV 
and the forest plans eliminate more and more access to the 
forests. Between the wilderness, roadlessness and these plans, 
including your proposed road maintenance funding, I wonder if 
you really want people to come and visit the forests. I'm 
wondering why you need $5 billion to manage the lands, when you 
don't seem to be willing to keep most of the roads open to the 
public. Am I missing something, or is this just a question of 
money?
    Mr. Bosworth. Well, actually, we had over 200 million 
visitors to the national forests last year, and we welcome 
visitors to the national forests, so the direct answer to your 
question is we do want people to come to the national forests 
and enjoy them. Some of the things, like the off-highway 
vehicle policy, was an effort to provide for the needs of off-
highway vehicle users, but do a better job of managing that use 
so that the next generation of users will also have a good 
opportunity to enjoy it. So, the decision was to have motorized 
vehicles limited to designated roads and trails or areas. We've 
had a lot of support from the motorized users for that 
decision, organizations like the Blue Ribbon Coalition. Now, 
we're in the process of working together with people from all 
sides of that issue to figure out which roads and trails.
    As far as the road maintenance budget, that is a concern to 
us. On the other hand, we need to figure out where we're going 
to cut if we're going to meet our priorities and have a reduced 
budget. That's one of the places that we felt like we'd be able 
to take some cuts, but it's not without consequences. We'll 
again use the tools that we have, like improving our 
efficiency, working with partners--like counties and others--to 
try to get as much of that work done as efficiently as 
possible, but that's going to be a continuing concern.
    The Chairman. Well, Chief, I want you to know that I 
understand you've got a tough problem, and I do think you're 
doing as good a job as you can. I don't--I just know these are 
tough ones when it comes to telling the public that they should 
have access, and at the same time, roadways are not being made 
sufficiently accessible. It's a very tough explanation.
    You know, we have this giant program that we have to re-
authorize, where a lot of county schools are depending upon 
very large quantities of Federal money. The law is pretty 
clear. It's going to expire. And given the risk of the Forest 
County Schools legislation not getting re-authorized, what 
should these counties that depend upon thse Forest Service 
receipts be preparing for, in your opinion?
    Mr. Rey. Well, we hope the bill will be re-authorized. 
That's what we support and we want to work with the committee 
and the Congress to that end. But the situation will vary from 
county to county. There are some counties who have been able to 
diversify their economies, and there are some who haven't. If 
this bill is not re-authorized, the ones who haven't will be 
facing rather dramatic and immediate reductions in their school 
budgets, and that's not something that we think ought to happen 
if it can be avoided.
    The Chairman. There has been a recognition that certainly 
some of us who have none of the problem have been a big part of 
the solution--I think I have--but are we supposed to support 
these county schools forever?
    Mr. Rey. No, our judgment is that in some cases, as I've 
said, they've made the transition. In the re-authorization, if 
the funding formula is adjusted--the obvious candidates are 
getting less. The ones who haven't been successful are the ones 
who arguably should continue to get the money, albeit in our 
proposal it is a step-down fashion so that at the end of this 
5-year transition, they've gotten themselves to the point of 
where they can be more self-sufficient. At the end of that 
transition, they'll still be getting their 25 percent share of 
timber receipts, assuming that we don't change the 1908 
legislation. That share will be higher than it was when we 
passed the 2000 legislation because we've managed to stabilize 
and increase the receipt program.
    If you look at that chart there, the blue line shows you 
what the receipt levels have been since the turn of the last 
century. What you can see is that we didn't generate those 
levels of receipts that the counties became dependent upon 
until the late 1970's and through the 1980's. What we'll be 
going back to at the end of our 5-year proposal is a receipts 
level that's comparable to what we were generating with county 
revenues comparable to those in the period of the 1960's and 
1970's.
    The Chairman. I have two very brief parochial issues. I see 
that you've reduced in a very small account, but important to 
us, Valles Caldera, to less than 20 percent of what it was last 
year. I thought we had your assurance in last year's hearing 
that the administration would fully support this year's 
funding; what happened?
    Mr. Rey. Well, we did fund it. We proposed to fund it at 
the level we proposed to fund it last year, and it is our 
continuing hope that the trust will eventually become more 
self-sufficient. We're happy to continue to work with you and 
Senator Bingaman to decide what the right level of funding 
going forward for 2007 is.
    The Chairman. All right. My last one has to do with the 
Lincoln County Stewardship Program in the Lincoln National 
Forest. Can you speak to that, Chief? We had some assurance 
about that. Either you or the Secretary. Can you tell us what's 
going to happen and what you're going to do about that?
    Mr. Bosworth. Well, the Lincoln National Forest is working 
closely with the tribe to develop a stewardship contract, which 
it's my understanding should be signed sometime in April. 
They've been working together now to come up with something 
that will meet both the Forest Service needs for work on the 
ground as well as the tribe's needs. It's also my understanding 
that there would be three timber sales that would be part of 
that stewardship contract of about five million board feet 
each. There would be some pre-commercial thinning that would be 
part of that stewardship contract that would do some 
restoration----
    The Chairman. So, it's on the burner, and it's moving?
    Mr. Bosworth. It's moving along, and I think it's going to 
work out well.
    The Chairman. All right, thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. My colleague 
from Missouri has asked that I yield for one quick comment, and 
then I'll resume my questions.
    The Chairman. Yes, indeed.
    Senator Talent. I want to thank the Senator from Alaska and 
the chairman for anticipating my concern. Mr. Chairman, I have 
a statement I'm going to submit for the record and some 
questions also, because you really hit what I was aiming at.
    [The prepared statement of Senator Talent follows:]
 Prepared Statement of Hon. James M. Talent, U.S. Senator From Missouri
    Mr. Chairman, Thank you for holding this hearing on the U.S. Forest 
Service's FY07 Budget. I would specifically like more information on 
the Forest Service's proposal to sell portions of the Mark Twain 
National Forest in Missouri.
    As you may know, the U.S. Forest Service is proposing to sell as 
much as 21,566 acres of Mark Twain National Forest to provide funding 
for a five-year extension of the Secure Rural Schools and Community 
Self-Determination Act.
    This legislation called for in the budget request would grant the 
Forest Service authority to sell small tracts of forest land that are 
isolated or inefficient to manage, and use those funds towards rural 
schools and infrastructure. However, I'm extremely concerned over the 
way this bill is structured because there is no guarantee that the 
revenue provided will stay within Missouri.
    The Mark Twain National Forest is one of Missouri's greatest 
treasures, and we should all work to preserve it for future 
generations. Many have opposed increasing access to the Forest.
    As you know, Mr. Chairman, the Mark Twain National Forest isn't one 
contiguous tract of land. It is a series of small tracks throughout the 
southern and eastern portion of the state. It covers 1.5 million acres, 
in 29 Missouri counties. The area is diverse in vegetation, geological 
features, water resources, and wildlife. It includes seven federally 
designated wildernesses and numerous historical and archaeological 
sites.
    Many people in Washington believe that any human management of our 
natural resources is inconsistent with their preservation. I think this 
is the exact opposite of the truth. The wise use and management of 
public land is necessary to the health of the environment. I will 
continue to support balanced measures that safeguard the health of our 
precious natural resources while improving the quality of life for 
people. I am not opposed to the sale of lands within the forest, if 
there is a safeguard that those revenues will be returned to Missouri. 
I don't want land sales in Missouri to pay for schools in California.

    Senator Talent. Chief, I just think we need some greater 
proportion than your proposal now has between the 
contributions, if you will, from various States and the 
receipts. As you know, you're proposing selling 21,566 acres 
from the Mark Twain National Forest in Missouri, which would be 
the third in terms of size in the country. And you know, our 
schools aren't getting anywhere near a third of the revenue, 
and I hate to sound parochial, but--actually, I don't hate to 
sound parochial. These schools need the money, and we view the 
Mark Twain as certainly a national treasure, but also as a 
Missouri treasure. So, I hope we can work together to try and 
equalize that.
    Mr. Rey. We'd be happy to work with the committee on both 
the formula and the selection of parcels to be considered for 
sale.
    Senator Talent. I appreciate that. I'm not opposed in 
principle to this, but I just think that we need to see more of 
the benefit than we're now seeing. And just as a general 
comment, I know that payments have fluctuated in terms of how 
much from the program that the schools are getting. Just be 
sensitive to the needs and the issues that these rural school 
boards are facing. I mean, whatever in some kind of abstract 
ideological sense should be the case, they've come to depend on 
these payments, and we need to be very sensitive to them, 
because they're trying to educate these kids. There isn't 
anything more important that we're trying to do back home.
    Mr. Rey. Yes, for us, this isn't an abstract issue. These 
school systems are the school systems that many of our 
employees use to educate their children, so we're part of those 
local communities and deeply sensitive to the trials and 
difficulties that the school boards have.
    Senator Talent. Thank you. Thank you for yielding.
    Senator Murkowski. Thank you. Thank you, Mr. Chairman.
    Secretary Rey, I appreciate you focusing your testimony on 
the Secure Rural Schools aspect.
    And Mr. Chairman, I want to make sure that my full written 
comments, the opening statement, get included in the record, 
because I actually take a little bit of time to compliment the 
Forest Service and your efforts in working with us on the 
situation down in Ketchikan and working with Mr. Seley. We 
appreciate that, so I wanted to make sure that that's in the 
record.
    I'm trying to understand what the proposal actually does to 
the schools and counties in Alaska. I'm looking at the payments 
in the various areas and recognize that in most of my areas in 
southeast, in the Tongass National Forest, we've got historic 
unemployment rates somewhere between 10 and 20 percent. The 
Yakutat area is at about 13.1 percent. Their payment this past 
year is $705,000 and change. The reality that we face, and I 
know I'm not telling you anything you don't know, Mr. Rey, but 
we are in a situation in the southeast where we've got over 90 
percent of our lands that are owned by the Federal Government. 
You have economies that are based on the forest. And so, for us 
to get to a point of self-sustainability or no further reliance 
on the timber industry is going to be very, very difficult in 
these areas.
    So, what I'm trying to understand is what does this--what 
will this proposal mean to an area like the Skagway-Hoonah-
Angoon, where they're looking at a 20-percent unemployment 
right now?
    Mr. Rey. With the current level of receipts and our 
proposed offset of an additional $800 million to supplement 
that with guaranteed payments over 5 years, the program would 
be funded at, on the average, half the level that it was funded 
under the 2000 legislation. What we will be proposing to you 
when we send the language up here shortly is that we start with 
the first year of implementation at about the level that the 
counties enjoyed in total with the 2000 legislation and then 
start to step it down as we go forward through the 5-year re-
authorization.
    How that funding is distributed among the States and 
counties is something that we'd be happy to work with the 
committee about. One obvious alternative is to keep the formula 
that exists in the 2000 legislation. Another obvious 
alternative is to modify that formula for the purposes of 
equity or to better reflect those counties that are still the 
most hard hit, as opposed to those that have actually done a 
pretty good job at beginning to diversify or, in fact, 
diversifying their economies. That's something that we can work 
with as we get into the re-authorization process.
    Senator Murkowski. Well, I think it's going to be 
imperative that there not just be a straight calculus--this is 
what you have to do--because as I've indicated, in certain 
parts of the State, we have no ability to go anywhere else. We 
don't own the land we--you know, we might be able to bring some 
more tourists in, but in terms of economic opportunity and the 
ability to diversify, I believe you know very well our problem 
there. So, if I understand what you're saying, an area like 
Yakutat, that last year received $705,000, would get half of 
that?
    Mr. Rey. No, on the average, they----
    Senator Murkowski. On the average?
    Mr. Rey. Probably next year, they'd get pretty close to 
that level. The year after, we'd start stepping it down.
    Senator Murkowski. Stepping it down even further.
    Mr. Rey. Right. They would never go to zero, because they 
would always get their share of actual receipts, but it would 
drop as the guaranteed payment drops over the course of the 5-
year authorization.
    Senator Murkowski. And, of course, that news is absolutely 
going to devastate them. My question, then, is what happens 
after the 5-year period? What would a community like the city 
and borough of Yakutat expect after that?
    Mr. Rey. If nothing else occurs, they would expect their 
historic share of timber receipts, 25 percent of the gross 
receipts from whatever we sell. We're hoping that that's more 
than it is today. It's more today than it was last year or the 
year before. That's if nothing else happens. I think it's 
probably a fairly sure bet, though, that toward the end of this 
5-year re-authorization, we'll be looking at this again to see 
which counties are still in dire straits and which have been 
able to use the ensuing 5 years to continue the process of 
diversifying their economies.
    Senator Murkowski. It seems that one of the problems that 
we have here is, at least in Alaska, an ability to move forward 
with those timber sales, because of the delays, because of the 
litigation. So, on the one hand, we're saying we have to get 
the receipts in so that we can build this up, but we've got an 
inability to move, and we've been seeing this in the southeast. 
That's what you were working on with Mr. Seley's venture. So, 
there seems to be an inconsistency between what we're promising 
now and what we can expect down the road here. I don't know how 
you reconcile that.
    Mr. Rey. I think where the inconsistency comes in is not 
every region has reached that second transition, that I 
discussed, in stabilizing timber receipts. Region 10 is where 
we have the Tongass and where we have the greatest challenge. 
The other inconsistency is that not all the counties are in the 
same place economically; those are things we'll have to work on 
as we get into this re-authorization.
    Senator Murkowski. Well, know that we are very concerned 
about it. We'll be working with you as you move forward in 
this. I have some other questions for the Chief, but I'll let 
my colleagues go.
    The Chairman. Thank you. Senator Murkowski, I might ask, 
time-wise, can you be here for a while? Senator Salazar, it's 
your turn. I'm going to let you chair--I have a meeting--and 
you close it when time has expired. I want to thank both of you 
again for coming.
    Senator Salazar. Thank you, Mr. Chairman, and welcome, 
Chief Bosworth and Secretary Rey. I have five questions, and 
I'm going to ask the questions and ask you to respond to them, 
if you would. They relate to the bark beetle problem that we 
have in the West and the South; the second, the land sale 
proposals; the third has to do with fire and fire assistance 
grants to State fire assistance programs; fourth, recreation 
funding relative to the relative funding in different areas of 
the country; and then the last question has to do with the Wolf 
Creek development in southern Colorado and the status of that.
    My first question has to do with bark beetles, and I would 
direct that to you, Chief Bosworth. It seems to me that when 36 
million or so acres have been affected by the bark beetle 
problem in both the South and the West, that we ought to be 
doing as much as we possibly can to deal with the problem of 
bark beetles. We included an amendment in the budget last year, 
and we have seen response back from the Forest Service on some 
of the plans that you have to deal with the bark beetle 
problem. However, the concern I have is that you are proposing 
to cut 49 percent of the money that was going to deal with the 
bark beetle problem. It's something that affects many of our 
States across the West and across the South, so it seems to me 
that it's a very significant retreat from our commitment to try 
to deal with the bark beetle problem, and I would appreciate 
your comment on that.
    Second, with respect to the land sale proposal, I'm not 
opposed to land sales as a matter of principle, but it seems to 
me that if we're going to sell off some 300,000 acres, 
including some 21,000 acres in my State of Colorado, that we 
ought to be doing it as part of an overall coherent plan in 
terms of selling isolated parcels that are hard to manage. I 
know that's part of the Forest Service plans, but it seems to 
me that simply selling off 300,000 acres to deal with a 
budgetary issue is not the way that we ought to be managing our 
public lands through the Forest Service.
    I'd like you to comment on that, if you would, Secretary 
Rey, because that's one that I'm going to be watching and I'm 
probably going to be fighting against, because I just don't 
think it's the right way to go, although I would be willing to 
work with you to come up with a longer-term plan on how we deal 
with these isolated parcels and then where we take the 
investments from those lands.
    Third, on fire, you know the State Fire Assistance Program 
seems to be proposed to be cut by 36 percent. Given the drought 
that we have in many places across the West, including the 
southern part of my State, I'm just concerned about what that 
means in our assistance to the State fire agents.
    And then, finally, on recreation, I was looking at the 
numbers relative to what Colorado's Region 2 receives in 
funding from the Forest Service, and we get about 60 cents per 
visit, as compared to a $1.06 per visit for Region 1 in the 
northern Rockies. And I was wondering whether you might explain 
that discrepancy in terms of the funding for the different 
regions. I think that may be a question for you, Chief 
Bosworth.
    And then the final question--and this is to you, Secretary 
Rey--is simply about the Wolf Creek development, which has been 
a very controversial proposal in the southern part of Colorado. 
I would just like for you to give me and the committee an 
update on that to the extent that you can. I understand that 
it's in legal process as well. Please?
    Mr. Bosworth. Okay, I would like to start with the question 
on bark beetles. We do have a significant bark beetle 
infestation in Colorado as well as other places in the West. 
It's my understanding that our co-op dollars that would go to 
Colorado will be an increase over what it's been. The 2007 
would be an increase over 2006 because of the significance of 
the problem that we have there. We're also working very closely 
in Colorado with a group called the Northern Colorado Bark 
Beetle Cooperative to try to identify ways we could 
strategically locate the kind of treatments that need to be 
done to reduce the fire hazard and to increase the opportunity 
to utilize some of the dead material that's out there that 
would lower the cost of doing the treatments.
    Senator Salazar. Are you going to be impacted in your 
program, though, with essentially what is a 50 percent cut in 
the funding level from last year to deal with bark beetles?
    Mr. Bosworth. Across the country, Service-wide, that 
reduction will have an effect on our ability to pass dollars 
onto States, but it maintains the level for Federal lands. So, 
in terms of the national forest lands, we will continue at the 
same level of forest health dollars to do the work on bark 
beetles. So, for the Federal lands, it won't be reduced. For 
State and private entities, the dollars that we pass on to 
State foresters that are used on private lands, that's being 
reduced. The reason for that is that we're the only ones that 
can take care of the Federal lands. For the State and private 
lands, State and private landowners can also contribute to the 
treatments of those lands.
    Senator Salazar. If you'd comment on it, I see my time is 
already up, but just go ahead and comment, if you will, very 
briefly on the remaining questions that I asked.
    Mr. Rey. Sure. As far as the Secure Rural Schools proposal, 
we view this as a comprehensive proposal that will play out 
over 5 years' time, over the length of this re-authorization. 
In the course of that, if the committee chooses, we can 
renegotiate the list each year of those 5 years rolling forward 
to decide which tracts to sell. We think that this is justified 
as a one-time proposition to provide the necessary additional 
time for a transition for these school systems. We also think 
it's justified because one of the reasons that some of these 
counties have been unable to diversify their economic base is 
the lack of a tax base, the lack of private land. Some of the 
lands that we would convey out of public ownership into private 
ownership will then be part of the county's tax base. So, there 
is at least some symmetry between the problem and our proposed 
solution.
    With regard to fire preparedness, as I was telling Senator 
Bingaman, in a tough budget year where difficult choices need 
to be made, we had to increase our own suppression dollars 
because of what we expect will be a difficult fire year. We did 
increase volunteer fire assistance. We thought those were two 
higher priorities than state fire assistance, although that's 
something we're happy to work with the committee and the 
Congress about.
    As to the Wolf Creek proposal, that issue is being decided 
at the regional office, and I believe they are within a couple 
weeks of a final decision. I emphasize that it's a regional 
decision, notwithstanding all the attraction that the issue has 
gotten, in part as a result of a business dispute that's gone 
bad between two parties that are suing each other and are 
heavily lawyered-up to try to get every advantage possible for 
their client.
    Mr. Bosworth. I'll try to answer the recreation question 
that you had. It's always difficult, dependent upon how you 
want to compare the dollars, but if you compare it on a per-
acre basis, that might be different than on a per-visitor 
basis. You can also compare, based upon back-country recreation 
versus developed recreation; we look at all those cost 
comparisons, but the point is that you're comparing Region 1 to 
Region 2, the Northern Region to the Rocky Mountain Region. The 
Rocky Mountain Region gets about 40 percent more dollars total 
in recreation than what the Northern Region gets. The layout of 
the land, the kind of visitors that come there, all that is 
taken into account. I'd be happy to have folks visit your staff 
and go over those figures more specifically and show you why 
we're going about distributing the dollars the way that we are, 
if you'd like.
    Senator Salazar. Well, I thank you, Chief Bosworth and 
Under Secretary, for those responses. Let me just say two quick 
comments, one on the bark beetle problem. It just seems to me 
that it's such a huge issue for the entire West and the 
Southern part of our country that we need to do more, not less 
with it, and I'm afraid that a 50 percent cut in the national 
effort is going to exacerbate a problem which is so difficult 
to deal with already.
    And the second and final comment--back on the land sales 
proposal, Secretary Rey--I think it would be one thing to have 
worked on this over a period of time with this committee and 
the Congress to get to the conclusion that we were going to 
dispose of 300,000 acres, as opposed to making it a part of the 
budgetary process, because I understand the management 
prerogative of selling isolated parcels of land, but I have 
concerns about the way that this all came about, and we'll see 
how we move forward with it in this Congress. Thank you very 
much.
    Mr. Rey. What we're trying to do is to be as transparent as 
possible in this proposal, and you have to start a proposal 
someplace. This was as good a place as any to start it, but 
this is something that we could continue to adjust and modify 
each year of the 5-years of the re-authorization of the Secure 
Rural Schools legislation, if that's what the committee chose 
to do. That's not something we would object to.
    Senator Murkowski [presiding]. Thank you. Senator Cantwell 
has asked that her opening statement be included in the record, 
which it shall.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington

    Thank you, Chairman Domenici.
    As you know, the vital County Payments program continues a nearly 
one hundred year old policy of providing fair and equitable 
compensation to the citizens of forest counties for their coexistence 
with federal lands. Simply put, without the support provided by the 
Secure Rural Schools and Self Determination Act, many rural communities 
in Washington would struggle to meet their basic needs such as adequate 
roads and good schools. It is imperative to forest-dependent rural 
communities in over 40 states and more than 700 counties nationwide 
that this law continues to be fully funded.
    Senate Bill 267 which reauthorizes the Secure Rural Schools and 
Self Determination Act has strong bipartisan support on this Committee. 
I'd like to publicly thank Senators Craig and Wyden for their 
leadership and am proud to be a cosponsor of this legislation.
    However, I fear that so much of this progress and essential support 
will be put at risk as a consequence of the Bush Administration's 
latest misguided proposal. The administration's plan outlined in the 
fiscal year 2007 budget proposal would sell off around 300,000 acres of 
public land, but would only partially fund the County Payments program 
at $800 million. This funding level only provides half of the necessary 
funding for the program and only provides funding for the next 5 years. 
In short, this proposal is under funded, shortsighted, and is a non-
starter for this Senator.
    I am very concerned about the precedent of selling off public lands 
in order to cover short-term budget deficits. Federal forest lands 
represent an irreplaceable public treasure: cherished by hunters and 
fishermen, used for recreation, study, and education. In addition to 
these multiple purposes, these forest lands provide essential habitat 
for fish and wildlife.
    Since the Administration's proposal was developed in DC with little 
or no input from the Forest Service's Pacific Northwest field office, 
we are anxious to see maps of exactly what lands are on the chopping 
block in Washington State. We do know that the President's proposal 
calls for the sale of 1,300 acres on the Mt. Baker Snoqualmie National 
Forest, 2,700 acres on the Wenatchee National Forest, 1,900 acres on 
the Colville National Forest, and 640 acres on the Washington side of 
the Columbia River Gorge National Scenic Area.
    These lands represent an important legacy, which we have chosen as 
nation to protect for future generations. The proposal in this budget 
seems to undervalue this legacy by proposing to sell off our children's 
inheritance to pay down the debt. Such fiscal sleight-of-hand won't 
fool anyone.
    To be sure, the County Payments program has proven effective, 
responsive, and essential to so many counties across the nation. We 
must support and sustain it with real funding in an adequate, 
responsible manner. Without this vital safety net, rural counties in 
Washington State will lose more than $40 million dollars in 
irreplaceable funding for a variety of critical programs.
    Skamania County in Southwest Washington is a good example. Almost 
80 percent of Skamania is in the Gifford Pinchot National Forest, 
making it non-taxable by the county. Other large portions of land are 
owned by the state or timber companies, leaving only two percent of the 
county eligible to be taxed at full valuation. However, by leveraging 
funds from the County Payments program, places like Skamania County are 
able to still provide critical public services like education, 
emergency response, and road maintenance.
    In addition, title two of this law has increased local community 
involvement and empowered local citizens through Resource Advisory 
Committees. These committees have helped cultivate a sense of 
ownership, promoting involvement in important projects such as 
improving wildlife habitat and water quality while reducing the threat 
of forest fires through fuels reduction efforts.
    Ultimately, I believe this is a time to examine our priorities. Do 
we want to sustain a proven and balanced initiative that has succeeded 
for years in serving, supporting, and valuing the citizens of forest 
counties in their coexistence with federal lands? Or will Congress 
follow the Administration's flawed proposal by placing a price tag on 
our precious public lands?
    I believe the answer is clear and I look forward to working with my 
Committee colleagues on this issue.
    Thank you.

    Senator Murkowski. Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Chief, when Senator Craig and I wrote this law 6 years ago, 
we thought it was going to work, but we had no idea how 
successful it would be. And in effect, as a result of 
bipartisan cooperation, literally all over the country, people 
who basically were battling each other are now collaborating. 
What we have done is converted all that confrontation into real 
collaboration on the ground with these resource advisory 
councils. And it just seems to me what you all are proposing is 
going to upend it. Let me be specific. By any calculus, about 
50 percent of the money is going to be gone, and that's 
counting everything, the sales and possible money from timber 
receipts and a variety of other things. Under the public lands 
sales arrangement, my sense is, in the West, this would be a 
lawyers' full-employment program. There would be lawsuits 
virtually all through the West with people fighting about these 
sales. I have gotten the sense from local officials--I was with 
a big group in Medford the other day. I was essentially the 
only Democrat in the room. They were all Republicans, all of 
them concerned about this, not because any of us are just 
against any possibility for land sales in areas as it relates 
to forestry, but because it puts the program back into the 
ideological briar patch.
    That's what Senator Craig and I wanted to avoid 6 years 
ago, and unfortunately, that's where we're headed again. And 
I'm just going to do everything I can to try to prevent that. 
I'm going to work with Senator Craig and Senator Domenici, and 
I know Senator Murkowski has got a great interest in this, 
because I just don't think we can play Russian roulette with 
these local communities. I mean, they're literally going to go 
over an economic cliff without these kinds of dollars, and I 
hope that you all will be receptive to working with us.
    What are your reactions? I recognize this is a seat-of-the-
pants kind of assessment, but what are your reactions, Chief, 
to looking at biomass projects as an alternative way to fund 
some of this legislation?
    It seems to me we do something that's consistent with the 
Forest Health legislation, help the deal with this dead 
material on the forest floor. It's a long-term winner for rural 
communities. It's something where they can get into the 
electricity. For forestry, it's like a second--it's a second 
crop for the forest.
    Would you be open to looking at biomass projects? We'd 
certainly work with the chair and colleagues on both sides of 
the aisle. Possibly some of the money from the energy 
legislation could be used. Would you be open to looking at 
that?
    Mr. Bosworth. Well, let me first say that I have to agree 
with you that the Secure Rural Schools Act exceeded my 
expectation by a long shot in terms of the value of people 
working together through the resource advisory committees. 
Across the country, as you said, it's been very very 
successful, and that's why we're so interested in finding a way 
to re-authorize that legislation. We've looked for ways to do 
that, to offset the $800 million, and something that will score 
as a mandatory offset. If there are other and better ideas out 
there, I'd be willing to work anytime with someone to come up 
with other ways of accomplishing the re-authorization of the 
Secure Rural Schools Act. I think we all would, because it is 
something that is very important.
    Senator Wyden. And biomass, specifically your reaction?
    Mr. Bosworth. I think it's an interesting idea if it scored 
out and if it would be an offset under these circumstances. The 
idea of utilizing and thinning forests is something that we're 
after, as you know, throughout the West. All that does is help 
us get these forests into better condition, and that's what 
we're trying to do through our fuels treatment kind of 
projects.
    Mr. Rey. The trick will be whether we can generate enough 
revenue from a different kind of offset and also whether it 
scores as a mandatory offset rather than a discretionary 
offset. But I agree with the Chief, we'll be happy to work with 
the committee to look at all options.
    Senator Wyden. Chief, I----
    Mr. Bosworth. We look at a lot of options.
    Senator Wyden. I do want to tell you that our analysis of 
the law is that you all cannot sell public lands for this 
purpose without a congressional authorization, and I just want 
you to know that I'm going to do everything I can to try to 
prevent that, not because I am against any role for public land 
sales as it relates to forestry policy, but simply because I 
think it would take us back to the old days of confrontation, 
and we've managed to get beyond that, and I just don't want to 
see us go back in that regard. I sit on the Senate Budget 
Committee. I assume we'll have a debate there, but I think 
you'll be amazed at the number of westerners, almost all of 
them Republicans, who share my view. It is not a cut against 
any role for land sales, it's just they don't want to see us 
create, once again, the kind of battles that we had about 
public lands policy before the legislation that Senator Craig 
and I authored.
    One last question, if I might, for both you and Secretary 
Rey, Chief. If we can find a bipartisan offset, something we 
all agree on, to fund the county payments legislation, I just 
want to make sure that you will be for full funding of the law. 
Because we've done the math, and our calculations are that 50 
percent of the money is going to be gone, both if you take the 
land sales and any additional money for timber receipts. If we 
can get a bipartisan agreement for full funding of the law, 
would you be open to that, assuming that we have addressed the 
offset question?
    Mr. Bosworth. Well, for us, the question again would be if 
we can keep within budget targets and if we can use your 
proposal or your idea about finding ways to offset, then I'm 
very interested in looking at other ways.
    Senator Wyden. So, I'm just going to operate, as we go into 
discussions with Senator Craig and Senator Murkowski and the 
others who've had a great interest in this--because that was 
what Mr. Rey testified to before with respect to the re-
authorization, is that if we get an offset that's bipartisan, 
that we have all worked together on, we would have full funding 
of the program. I only bring that up by way of saying we've 
crunched the numbers, and under the best case, what we're 
dealing with now, with land sales and timber receipts, we're 
still getting a cut of 50 percent. And given how hard people 
are hit in the West, that's not something that we can take home 
and justify. For the Oregon congressional delegation, this is, 
as far as I can tell, the top priority for this session, 
certainly my top priority as it relates to our State.
    I see that we've got multiple chairs here, Chair Murkowski 
and the chair of my subcommittee, where we produced the Secure 
Rural Schools legislation, so let me give my time back because 
I want to let my co-architect of all this have his time.
    Senator Murkowski. Senator Craig.
    Senator Craig. Thank you very much, Madam Chairman. Let me 
ask unanimous consent that my full statement be a part of the 
record.
    Senator Murkowski. Without objection.
    [The prepared statement of Senator Craig follows:]

   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho

    The President's budget reflects our nation's clear priorities for 
this year: win the war on terror, reduce budget deficits by reining in 
spending, create jobs and grow the economy, and boost America's energy 
independence.
    In short, this budget is ``leaner and meaner.'' And in the end, 
hopefully it provides for a more efficient government.
    The budget provides funding and support for the Secure Rural 
Schools and Community Self-Determination Act. This program, which gives 
stakeholders a real say in how nearby national forests are managed, is 
also helping our timber-dependent communities to transition to a 
broader economic base and prepare for the future. Its purpose is to 
spur the economic activity these communities will need to survive and 
flourish, and I'm very pleased President Bush included it in the 
budget.
    However, I do have significant preliminary concerns about the 
offsets proposed by the administration and look forward to receiving 
additional details.
    To quote the Idaho Statesman, which I rarely do, however I feel 
this quote summarizes the feelings of many Idahoans, ``We're skeptical 
as well [of the administration's proposal]. Not no-way, no-how opposed.
    But based on the sheer size of what the U.S. Forest Service calls a 
``limited'' sale, we definitely need some convincing.''
    As a curious side note, based on the way many environmental groups 
are responding to the administration's land sale proposal, I am left 
with the impression that they are content with the manner in which our 
public lands are managed and do not want to see any public lands sold.
    Overall, I am pleased with the distribution of funds to the various 
accounts. I feel we need to continue to focus on fire preparedness and 
suppression, however with a decrease in rehabilitation and restoration, 
I am curious as to the administrations proposal to continue to manage 
our public lands in a sustainable way after the fires come--and the 
fires will come.

    Senator Craig. Chief, welcome before the committee.
    Mr. Bosworth. Thank you, I am glad to be here.
    Senator Craig. We get to see The Honorable Mark Rey up here 
a lot, but we feel very honored by your presence this morning. 
Two feet on the snow on the level in the Council Valley.
    Mr. Bosworth. They need that, the fuels----
    Senator Craig. Three and a half feet in McCall, ten feet on 
the top of Brundage Mountain. How's that?
    Mr. Bosworth. That is a good sign.
    Senator Craig. That is a good sign. I wish that were true 
across the West. But certainly, in your old stomping grounds 
and mine, we would like to announce that the drought has 
broken. My guess is we won't do that, yet it's now raining out 
there, that rain that's on the Pacific Coast is making it into 
Idaho, and we'll see if that snow stays on the mountain. If it 
doesn't, we'll have a liquid disaster going on down the rivers.
    But anyway, thank you all for being here. Mark, thank you 
for being here. Budgets are tight, and budgets are tough, and 
we know that. I've just come from giving speeches before two 
groups that are anxious to see how budgets go. And certainly, 
Senator Wyden and I and others have expressed our concern about 
how we deal with the Forest Service budget and how we deal with 
this very, very important initiative that we have been able to 
work with you in putting together with our rural communities 
and certainly our Secure Rural Schools Act.
    First of all--let me say it very directly--thank you for 
putting it in the budget, and keeping it there. And we, like I 
hope you, view this as a priority. We ought not walk away from 
the successes that we have had with our acts in bringing what 
were once parties and stakeholders in dispute together in a way 
that has, I think, tremendous opportunity for the future. We 
were able to bring decisionmaking, in some instances, back to 
the local level and working cooperatively with your 
organization in what has to be recorded as a very successful 
process. I don't know what the number is now, 2,000-plus 
initiatives, large and small, not one of them yet challenged in 
the court. We've got a better record than you have.
    Mr. Bosworth. It's working well.
    Mr. Rey. Actually, some of them are now in court.
    Senator Craig. Oh, don't say that, Mark.
    Mr. Rey. Sorry.
    Senator Craig. But the point is, the collaborative process, 
with resource behind it to allow things to come together, even 
if it were small baby steps along the way, has been, without 
question, a success. Certainly, speaking to the sustaining of 
our rural schools and our roads and bridge networks within 
these rural timber-dependent counties is the other side of that 
coin. I just came from Idaho, having spent a week out there, 
and in many--I was in many of these communities, and obviously, 
they're very concerned. Some of them are moving along. Some of 
them are now experiencing economic diversity and some growth, 
and they've worked hard at it. And I was, very early on, one of 
those that told them this was not a permanent entitlement, this 
was an opportunity for transition and we'd try to keep people 
whole during that time. And I think that we see that as we work 
toward re-authorizing it.
    I am one who has never believed that we ought to use 
surplus properties to supply the general fund. I've been 
involved too long in exchanges and moving properties around for 
the sake of management and efficiency in both private, State 
and Federal to suggest that we just sell it all off. At the 
same time, I also recognize these are bits and pieces, the 40's 
and 60's that really don't make a lot of sense.
    It is ironic that you are with us today, because when we 
bought the ranch that your wife grew up on, in the middle of 
some of that private property was 160 acres of Forest Service 
land, totally fenced around by the Dopp estate. And I remember 
I went in and looked at all of that property and decided that 
it really did need some logging, limited logging and thinning 
and cleaning. Not only would it improve the timber stands, it 
would improve the grazing. Well, we didn't know where that 
160's boundaries were. We certainly didn't want to touch it. It 
was Federal property. We spent a fortune finding those 
boundaries, and then I turned to the Forest Service and said, 
You know, you really ought to log this, it really needs to be 
thinned and cleaned. And they said, Oh no, we're not interested 
in it, we can't touch it, won't touch it, didn't touch it. And 
so, we had this nice pasture, and 5 years later, it was growing 
and productive, and there were new trees, and then right in the 
middle of it was 160 acres that were dead and dying. And in 
part, that's the story we ought to be looking at, but I saw it 
firsthand to know the reality of it.
    At the same time, are those properties that ought to be 
traded or exchanged other than sold? I know we're looking for 
revenue, and we're tight on revenue right now. And Senator 
Wyden has said it well, we'll do our work to see what we can do 
to offset and do some of these things. Because, certainly, at 
the top of my priority list this year is keeping this program 
intact, getting it re-authorized and moving it down the road.
    Now, that's a small bite of a much bigger apple that you're 
all dealing with when it comes to our budgets and where we are 
with our initiatives and with healthy forests and those things 
that are, in the broader sense, tremendously important to the 
state of our national forests, but we'll work very closely with 
you as we work through these things. We thank you for being 
here, and we've got some very real challenges out there. I 
don't think this rain is hitting Arizona.
    Mr. Bosworth. No.
    Mr. Rey. If I could just briefly respond, there are two 
misapprehensions I'd like to address. The first is that we 
looked at land sales as the first alternative for funding the 
re-authorization of this legislation. That's not the case. In 
fact, it was the last alternative because it was the only one 
that we could find that would score a mandatory offset to 
offset a mandatory expenditure so that it wasn't subject to 
annual appropriations. The second misapprehension I'd like to 
deal with is that these land sales and this proposal by 
definition have to be controversial. The history of land sale 
proposals before this committee and before this Congress over 
the last quarter century suggest that there are instances in 
the past when people have been able to work together to convey 
out of public ownership land that doesn't really belong in 
Federal ownership to achieve some other purpose. We're enjoying 
the fruits of that labor today as we invest the proceeds from 
land sales under the Southern Nevada Land Act and under the 
Educational Land Grant Act, under the legislation that the 
Congress approved last year for the Forest Service to sell 
excess administrative sites. We can make it controversial if we 
want, obviously, but we've acted at least three times in the 
last decade on similar proposals that proved uncontroversial 
because people were willing to come together and meet the three 
criteria that I laid out at the outset--precision, transparency 
and agreed-upon purpose.
    Senator Craig. Well, Mark, I don't agree with any of those 
principles. In fact, Senator Wyden and I have started 
discussions about how we deal with this, and Ron's proposed 
maybe a very transparent public process of picking and 
choosing, and I'm certainly willing to look at those kinds of 
things also. I think when you involve the public in these kinds 
of issues, they look at the maps, they look at the acreages 
involved, and there is a new reality. There isn't just the 
reaction of no, heck no. Because, in all fairness, that's how I 
tend to react to the concept. But we've also recognized 
property boundaries and patterns and what is and isn't workable 
and should and shouldn't be done, and I think that part of it 
is meeting the public test here, and that's part, I think, of 
what you've just outlined, and that's going to be critical, or 
this will not fly or any portion of it. Well, thank you very 
much, and we'll look forward to working with you.
    Mr. Bosworth. Thank you.
    Senator Murkowski. Thank you, Senator Craig. Obviously, at 
least amongst those of us that have participated in the 
committee hearing this morning, this is an area of keen 
interest and certainly high importance in many, many of our 
States. Just to get off of the Secure Rural Schools issue just 
for a moment, one of the questions that I have been asked by my 
constituents to bring up this morning relates to payment of 
invoices. I hear from my constituents--and I'll give a specific 
example. We had a constituent from Craig who tells me that it 
takes 3 to 4 months to get an invoice through. And I understand 
that perhaps some of this may relate back to the situation with 
Hurricane Katrina and the effect on the system, but I'm told 
further that they really believe that it's a procurement 
management system, that essentially, your computers and USDA's 
computers don't work, don't talk. Can you tell me what the 
problem is and what you're doing to fix it so that the 
contractors don't have to take out a loan to pay their bills? 
What's going on?
    Mr. Bosworth. About a year ago, we started centralizing the 
budget and finance part of our organization. We moved all of 
our employees that work in that arena that were willing to go 
to Albuquerque, New Mexico. We designed new systems to take 
care of payments, salaries, all the things we have to do in 
financial management. Most of those worked really well, but a 
couple of them we've had some problems with, one being 
payments. Then, of course, all of U.S. Department of 
Agriculture payments get paid out of our national finance 
center that's located in New Orleans. When that was hit by 
Hurricane Katrina, we had something like 500 or 515 employees 
there. While they had an alternative plan, we didn't have a 
plan for losing all of our employees that were there, so it's 
taken a considerable amount of time to get staff back up there. 
So, that's how we got there.
    There are some problems in terms of integrating some of our 
systems. I have assigned one of our regional foresters to head 
up a strike team that's gone down to Albuquerque to get on top 
of the backlog, and at the same time, look at design changes in 
the way that we're processing payments so that we don't have 
another backlog. We want payments done in 30 days. I expect 
that backlog to be taken care of in the next 3 or 4 weeks. At 
the same time, we'll be redesigning the processes to straighten 
that problem out. Again, I feel that most of the things have 
gone very well there, but with that massive of a change, this 
is one that was a glitch and that we are getting it fixed. I 
think it'll be taken care of, and I'm very concerned about the 
people that are out there that aren't getting paid for 3 or 4 
months----
    Senator Murkowski. Right.
    Mr. Bosworth [continuing]. Some of them small businesses 
that are on a shoestring. We've tried to find a way to work 
around our processes for people who are, in some cases, going 
to be foreclosed on by the bank, to make sure that we can just 
write a check and get it to them. We don't want people to be 
put in that situation.
    Senator Murkowski. So, if I've got folks that are coming to 
me still complaining that they haven't gotten paid, what do I 
tell them?
    Mr. Bosworth. Tell them they should be getting paid very 
quickly. If they're not, then there's a phone number that we 
can get to you that you can pass onto them at our service 
center that is specific to payments.
    Senator Murkowski. Is it a 1-800, or is it direct to you?
    Mr. Bosworth. No, well, it's not direct to me, but I can 
also give you my phone number, because if somebody has a big 
problem, I want them--I don't want somebody going bankrupt 
because we're not getting our payments to them on time.
    [Note: The phone number for the Albuquerque Service Center 
is 1-877-372-7248.]
    Senator Murkowski. I appreciate that. Chief, I've got one 
last question for you. One of the issues that you hear coming 
out of Alaska certainly is the delays caused by litigation and 
appeals that are associated with the timber program. And what 
we hear from some of our folks is that the morale within the 
agency is dampened or somewhat diminished because of just what 
you have to deal with, in terms of the litigation and appeal. 
And it's been suggested that because of this, there are people 
within the agency that would prefer to focus on the recreation, 
the preservation, the restoration aspect of the Forest Service 
mission, certainly the path of least resistance.
    I guess I'd like to know from you whether or not you feel 
that this is the case, whether there is a morale issue that 
affects the direction of the Forest Service, and the commitment 
to maintain and enhance the timber program in the national 
forests, does that remain in place?
    Mr. Bosworth. Well, first, people hired on to work for the 
Forest Service are hired on to do work out on the ground, and 
most of them didn't hire on to write legal briefs and to try to 
build good administrative files for appeals.
    So, when people can't do the work that they are hired on to 
do, whether it's to enhance wildlife habitat, to clean up 
streams, to treat fuels, or to sell timber, then they get 
frustrated. I think the morale has gone up and down over the 
past 15 years or so. My belief is that the morale was improving 
as we were getting some of these new tools that we were able to 
use for things like fuels treatment and the Healthy Forests 
Restoration Act. It still remains very problematic in places 
where we harvest timber and sell timber for the purpose of 
harvesting timber, not to do restoration kinds of work. So, 
many of these tools that we've received to do fuels treatment 
work can't be applied in those kind of places.
    I think our folks do an amazing job out there, though, in 
places like Alaska, working through the bureaucratic legal 
maneuvering that takes place all the time in trying to get work 
done on the ground. I think that on the Tongass National 
Forest, they made some remarkable accomplishments in the last 6 
months just trying to get a program that will work. The bottom 
line is that it does get very frustrating for them, and we want 
to continue to try to develop processes and make the kinds of 
changes and adjustments that will allow them to get the job 
done with less finagling and less administrative paperwork.
    Senator Murkowski. And maintaining that commitment to allow 
for a timber harvest, not just, as I say, going what could be 
considered the easier route of the preservation----
    Mr. Bosworth. All of those are parts that we are committed 
to, whether it's selling timber for the purpose of selling 
timber in those places, or whether it's managing for wilderness 
where we have wilderness areas. We are a multiple-use 
organization. We need to be committed to all parts of that, and 
I believe our people are.
    Senator Murkowski. Good, I appreciate that.
    Mr. Rey. For the record, we get sued over recreation 
projects too, so it's not necessarily that much easier 
sometimes.
    Senator Murkowski. I suppose that's true. Gentlemen, I 
thank you for your testimony. I appreciate you being here 
before the committee this morning. I understand that the 
chairman has directed that the committee will receive testimony 
for an additional 10 days, so if there's anything that anyone 
would want to include in the record. With that, I appreciate 
your time and look forward to working with you on these very 
important projects. With that, we stand adjourned.
    Mr. Bosworth. Thank you.
    [Whereupon at 11:35 a.m., the hearing was adjourned]

    [The following editorial was received for the record:]

              Bush Forest Sale Proposal Runs Into Buzz Saw

                             By Sean Paige

                 The Gazette (Colorado Springs, Colo.)

    Buried in President Bush's multi-volume budget is a 
proposal--defensible once explained--that has generated more 
controversy than almost anything else in the document. The 
White House is proposing to auction off up to 300,000 acres of 
isolated, hard-to-manage National Forest land parcels to offset 
$800 million the taxpayers are obligated to spend on a Secure 
Rural Schools program created in 2000.
    But this rare stab at fiscal responsibility is too quickly 
headed for the wood-chipper, chewed up and spit out by knee-
jerk critics before most Americans have a chance to think the 
matter through.
    The proposal is a compound controversy, involving not just 
a sell-off of federal land--something sure to stir passions--
but the phase-out of a federal program that directed more than 
$400 million to rural counties last year.
    The Rural Schools program, created by Congress to provide 
financial assistance to counties (predominantly in the West) 
with a large portion of federal land, is up for renewal, and 
politicians whose constituencies count on the largesse are 
loath to see it go away. These payments once came from timber 
and mining revenues. But with those revenues down sharply--what 
with the welcome mat rolled up for these industries on public 
lands--a larger and larger portion of these funds have to come 
directly from the Treasury. That adds to the budget crunch.
    The White House wants to use $800 million raised through 
land sales to fund a phase-out of Treasury raid, asking 
counties to once again live on timber receipt revenue. It's the 
fiscally responsible thing to do. But it's led to accusations 
that Bush is trying to auction off America's ``natural 
heritage'' and cut off rural school kids--a double whammy.
    Much of the outrage is based on romantic but false ideas 
about the national forest system. The first idea is that every 
acre of this land is a ``national treasure'' we should never, 
ever part with. In fact, much of what's in the agency's 
sprawling portfolio has marginal aesthetic or ecological value, 
and might be put to better uses. The idea that the this 
proposal amounts to auctioning off the ``crown jewels'' is 
ridiculous.
    According to Randy Karstaedt, the Forest Service employee 
charged with compiling the list of parcels in the Rocky 
Mountain region, two criteria were used to select the parcels. 
Most are small and isolated, sometimes lying beyond forest 
boundaries. Or they are lands that are difficult or expensive 
to manage, but don't add much to the forest as a whole. These 
types of parcels are sometimes used by the agency in land 
exchanges with private parties, which occur more frequently 
than the general public might realize.
    Maps of the parcels will be available in several weeks as 
part of the public scoping process. Some will undoubtedly be 
removed from the list as more about them is known.
    A second misconception is that the national forest system 
is, or should remain, an unchanging monolith chiseled in 
granite, when it's more akin to an organism that evolves and 
changes over time. The service today manages 193 million 
acres--a portfolio that has grown considerably in recent 
decades. An estimated 2 million acres was added in the last 
decade--690,000 acres since the year 2000. Thus, the 300,000 
acres that might be sold represent .15 percent of agency 
holdings. That's less acreage than was added to the system in 
the year 2000.
    The agency's goal isn't selling acreage, but generating 
revenues to pay for the schools program, so if less acreage is 
needed to meet the $800 million goal, only that amount will be 
sold--a point missing from much of the commentary and coverage.
    The federal government controls--and often mismanages--at 
least a third of the land mass in the United States (more if 
one counts military bases, Department of Energy holdings and 
Indian trust lands). In Western states, that percentage is 
significantly greater. State and municipal governments also own 
big chunks. And those holdings are growing, given the fad for 
open space acquisitions among state and local governments.
    Uncle Sam's status as the world's most powerful--and most 
incompetent--landlord would not be jeopardized, in other words, 
even if whole forests were on the auction block. Any suggestion 
that the federal government will become land poor, or that 
we're auctioning off our posterity with this proposal, is 
preposterous.
    Perhaps we should be looking for more opportunities to 
transfer a portion of the government's vast and poorly managed 
holdings into the private sector and onto the tax rolls. Think 
of the economic good that could do Western counties whose 
futures and fortunes are too closely tied to the vagaries of 
federal land policies.
    This idea has merit. But it's almost certain to die a 
premature death, smothered under a blanket of rash and partisan 
rhetoric.

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of Mike Johanns, Secretary, Department of Agriculture, 
                   to Questions From Senator Domenici

    Question 1. I am concerned about ear-marking $70 million in forest 
products, vegetation management, and hazardous fuel reduction to the 
Westside of Oregon and Washington.
    Do you feel that the other Regions don't have as significant forest 
health issues? Just what is behind this shift in funding?
    Answer. The Administration is committed to fully funding the 
Northwest Forest Plan. This commitment represents a shift in funding to 
northern California and western Oregon and Washington. We expect that 
there will be no net reduction in funding to any region with the 
combination of Forest Products and Hazardous Fuels, which is necessary 
for continued progress in the agency's critical vegetation management 
work. Forest health is a priority for the Administration and the Forest 
Service is committed to addressing the issue across the Nation. With 
full funding for the Northwest Forest Plan, the agency can offer 800 
MMBF of timber volume, improve over 3,900 acres of terrestrial wildlife 
habitat and 120 miles of fisheries habitat; treat hazardous fuels in 
the wildland urban interface and municipal watersheds, and address 
reforestation needs of recent large wildfires.
    The Forest Service determines within each region where the Forest 
Products funding should be allocated to best support forest management 
programs, while using Hazardous Fuels funding to address the highest 
priority fuel reduction needs.
    Question 2. I see that you have reduced the funding for Valles 
Caldera to less than 20% of what it was last year. I thought I had your 
assurance, in last years hearing, that the Administration would more 
fully support this funding.
    Why the increase in Forest Legacy funding, while decreasing funding 
for Yalles Caldera?
    Answer. The FY 2007 President's Budget for the Forest Legacy 
Program (FLP) is $61,515,000, which is $4,979,000 above the FY 2006 
enacted. The number of States participating in the FLP continues to 
increase, with six new States in FY 2006 and an anticipated three more 
in FY 2007. In addition, for the FY 2007 national selection process, 
the Forest Service received 91 project proposals totaling more than 
$204 million. The FLP will assist in the protection of important forest 
resources as real estate prices swell and development pressures on 
private forests increase.
    The FY 2007 President's Budget reflects the President's commitment 
to providing the critical resources needed for our Nation's highest 
priorities: fighting the War on Terror, strengthening our homeland 
defenses, and sustaining the momentum of our economic recover. This has 
required some difficult decisions to be made. In this context, the 
FY2007 request for Valles Caldera is $990,000, which is consistent with 
previous years' budget requests. The Forest Service supports the Valles 
Caldera National Preserve, and is aware that the Preserve is working 
towards financial independence as required in the Act that established 
the Preserve. In FY 2005, the Preserve collected over $650,000 in 
revenues from such sources such as recreational fees, use fees, 
occupancy fees, and donations from public and private sources. These 
collected revenues supplement the appropriated funds and are 
immediately available for the administration, preservation, 
restoration, operation and maintenance, improvement, and related 
expenses of the Preserve. The Forest Service also provides 
approximately $40,000 worth of fire services to the Preserve annually.
    Additionally, in FY 2006 the Forest Service is requesting approval 
from the Appropriations Committees to reprogram $3 million to Valles 
Caldera to acquire outstanding mineral interests pursuant to the Valles 
Caldera Preservation Act of 2005. Negotiations have been unsuccessful 
and it has become necessary for the agency to file a condemnation 
action. The $3 million will be used to cover just compensation for the 
taking and litigation costs upon condemnation.
    Question 3. Last year in the Interior Appropriations Conference 
Report we asked for a report on the percentage of fuels reduction 
contract that provide small diameter materials to small (less than 25 
employee) companies, large commercial sawmills, or biomass facilities.
    What is the status of that report and when will you deliver it to 
our Committee?
    Answer. The Forest Service currently tracks biomass in acres 
treated with biomass utilized (hazardous fuel reduction), green tons 
offered for bioenergy, and volumes offered for biobased products 
(forest products activities). At this stage, the agency does not track 
information relative to recipient of material (small company, sawmill, 
etc.) or the final use for the material (energy, furniture, 
construction material). The new Forest Activity Tracking System (FACTS) 
will allow the agency to track more detailed information on biomass 
utilization. FACTS will be operational for all hazardous fuel and 
restoration activities for fiscal year 2007. Status reports will be 
available periodically at that point, with a formal report provided at 
year-end.
    Question 4. What system has the agency put in place to track this 
information?
    Answer. Starting in fiscal year 2007, the agency will use the new 
Forest Activity Tracking System (FACTS) to track biomass utilization 
information in greater detail than currently available. FACTS will be 
operational for all hazardous fuels and restoration activities for 
fiscal year 2007. Status reports will be available periodically at that 
point, with a formal report provided at year end.
    Question 5. Last year in the Interior Appropriations Conference 
Report we asked for a report on the percentage of fuels reduction 
contract that provide small diameter materials to small (less than 25 
employee) companies, large commercial sawmills, or biomass facilities.
    Finally, what are your plans to share this with the public?
    Answer. The Forest Service Woody Biomass Utilization Team is very 
active with the agency's Partnerships office to promote biomass 
utilization by the public. A key element in that effort will be to 
share biomass information as widely as possible to assist communities, 
small businesses, and large commercial operations. The Forest Service 
is also a key member of a collaborative pilot project with industry, 
environmental NGOs, and other Federal agencies to provide a consistent 
and reliable supply of small diameter material from Federal lands.
    Question 6. I see that you have requested nearly $2 million to 
rebuild a District Office on the Lincoln National Forest.
    Can you tell me why this should be a higher priority than, funding 
the Valles Caldera Trust, or working with the Mescalero-Apaches to 
develop an Indian Stewardship project?
    Answer. The Sacramento Ranger District on the Lincoln National 
Forest was consolidated from three separate ranger districts into one 
district in 1992. This project will consolidate on one site the 
functions, employees, and facilities presently scattered over several 
locations. The project will address numerous safety and accessibility 
issues and will decrease the deferred maintenance backlog on the 
district by approximately $1.4 million. In addition, the project will 
benefit the community by centralizing district programs in a single 
location, providing ``one stop'' shopping for the public. The sale of 
the existing sites will benefit the community by providing the 
opportunity for additional commercial properties in the downtown area.
    Question 7. I am also told that when we directed that forest to 
produce a 15,000 acre Indian steward contract that the forest decided 
that it would forgo its green timber sale program, after this first 
year, to produce the Indian Stewardship project. I am unaware that our 
language included any waiver of the Lincoln National Forest's 
responsibility to produce both a green timber sale program and the 
15,000 acre Indian Stewardship contract.
    I am also told that the agency not too many years ago developed a 
feasibility analysis that indicated that the Lincoln National Forest 
could produce 10 million board feet of green timber sales if properly 
funded.
    I want your assurances that sufficient finds will be allocated to 
the Lincoln National Forest to offer 10 million board feet of green 
timber sales per year and the 15,000 acre Indian forest stewardship 
project. Also please tell us how much funding in the various accounts 
will need to be allocated to the Lincoln National Forest to accomplish 
this work in FY 2007 and beyond?
    Answer. The President's FY 2007 budget provides for hazardous fuels 
treatments and timber sales that will allow the Lincoln National Forest 
to maintain a program of about 6.5 MMBF from 9"+ trees, plus an 
additional 60,000 green tons (approximately 9 MMBF) of 5-9" trees. The 
acreage treated would be about 13,000 acres annually. This could be 
prioritized to the tribal stewardship contract; however, doing so would 
reduce treatments on the remainder of the Lincoln National Forest, 
including some critical wildland urban interface areas surrounding 
Ruidoso, New Mexico.
    Additional funding in 2007 would not lead to immediate increases in 
treatments due to organizational limitations, pre-treatment data 
collection, and environmental analysis work that are required before 
project implementation.
    Question 8. I have been pouring over your proposed allocations for 
funding for the Regions and, quite rankly, I am confused. I see that in 
Region Five (which contains only 10.47% of the net lands within the 
National Forest System) you have proposed to allocate 16.23% of all 
funds being allocated out to the regions to Region 5. I see they would 
get 31% of the fire preparedness funding; 24% of the fire suppression 
funds; and 19% of the fire rehabilitation and restoration dollars.
    I see that your proposing to send 13.5% of the wildlife and 
fisheries funding; 19% of the forest products funding; 16% of the roads 
funding; 21% of the infrastructure improvement funds; 41% of the brush 
disposal funding; 27% of the timber sale salvage funding; and 16% of 
the other trust funding to Region Six, a region that only contains 
12.87% of the lands in that National Forest System.
    As I look through your proposed allocations, I have to believe that 
the intermountain and eastern regions are getting short-changed to 
support Region's Five and Six which no longer produce the program 
outputs that they once did.
    Can you explain you allocation criteria for each of the line items 
within that National Forest System and Wildland Fire accounts to help 
us better understand the disparity in funding from region to region?
    Answer. Hazardous Fuels Reduction (WFHF): The agency is developing 
a new allocation system for WFHF for implementation in FY 2007. It will 
include a decision support model to define those FS Regions with a 
large fire problem that can be addressed through hazardous fuel 
reduction activities. The final criteria may include: fire hazard, 
ignition risk, consequences or values at risk, ecological restoration 
opportunity, efficiency, and appropriateness and feasibility of 
treatments.
    A team is in place to evaluate these criteria and identify 
nationally consistent or comparable data sets that support each of 
these elements. All of this data will ultimately be presented as 
geospatially referenced information. Upon completion of the decision 
support tool, the agency will develop a methodology to apply this 
geospatial information to the allocation. The agency will continue to 
seek the input and assistance of Congress in the evaluation of the 
proposed process.
    Preparedness: Regional Preparedness funding is based on fire 
planning analyses completed in the early 2000's under the Agency's fire 
planning and budget process, the National Fire Management Analysis 
System (NFMAS), and current Congressional direction to maintain 
staffing and production capability levels comparable to previous years.
    Suppression: Suppression funds are not currently allocated to 
Regions, information displayed in the President's Budget is associated 
with Indirect Costs assigned to the Suppression account based on 
current direction and policy. These costs are based on the number of 
full time equivalent (FTE) employees working in activities funded 
through the Suppression account.
    The Administration remains committed to improving budget and 
performance integration. The Administration will formulate and execute 
budgets that place an increased focus on results based on improvements 
in Forest Service accountability, effectiveness, and efficiency to 
improve the management and performance of its programs. This will mean 
a greater focus on investments in programs that can achieve 
demonstratably greater results for the same or lower cost, rather than 
historical funding allocations. These factors, coupled with budgetary 
constraints, are likely to lead to variances year-to-year in regional 
allocations.

       Responses of Mike Johanns to Questions From Senator Thomas

    Question 1. The budget includes $66 million to fully fund 
implementation of the Northwest Forest Plan. I applaud your emphasis on 
forest plan implementation. However, I am concerned that the 
President's budget proposes to fund the Northwest Forest Plan at the 
expense of other programs--particularly the National Forests in 
Wyoming.
    a. As you know, the several national forests in Wyoming have just 
completed their forest plan revisions, and those plans are not being 
fully implemented. In addition, we have severe insect epidemics on 
several Forests in Wyoming.
    b. How do you justify proposing dramatically increasing funding to 
the Northwest, while at the same time cutting funding to implement 
Forest Plans in Wyoming and around the rest of the country?
    Answer. President Bush has made a commitment to fully implement the 
Northwest Forest Plan and achieve the increased level of timber harvest 
promised under that plan. The Forest Service budget meets that 
commitment. At the same time, the President's FY 2007 Budget provides 
for no net reduction in funding to any region within the combination of 
Forest Products and Hazardous Fuels, which is necessary for continued 
progress in addressing the agency's critical forest health work.
    Question 2a. One of your legislative proposals is to sell 300,000 
acres of Forest land to fund $800 million of Forest county payments 
under the Secure Rural Schools and Community Self Determination Act for 
5 years.
    How much public involvement would there be in this process?
    Answer. Prior to conveyance, a notice of the proposal to convey 
each parcel will be published in a newspaper of general circulation. In 
addition, most properties would be offered competitively and would be 
widely advertised and marketed to the public. The proposal also 
requires that land authorized for disposal under the Act first be 
authorized to eligible entities before offering the land to the general 
public. An eligible entity is defined as a State or local government, 
and Indian tribe, or a non-profit organization.
    Question 2b. How much of the land proposed for sale has been 
identified for disposal in the Forest Plans?
    Answer. Most forest plans do not specifically identify tracts for 
disposal, but instead identify criteria that should be used in 
prioritizing and determining the appropriateness of disposal. It is not 
known how many of the tracts on the potentially eligible lands list may 
have been previously identified for past exchange proposals.
    Question 2c. What is the rationale behind ending the County 
Payments after 5 years?
    Answer. The original Secure Rural Schools (SRS) legislation was 
designed to be a transitional measure to allow States and counties to 
readjust their priorities and programs so that they are no longer 
dependent on a higher level of funding from national forest receipts. 
Currently there are counties at different stages of making this 
transition. Consistent with this situation and need, the Administration 
is proposing to provide a funding source for the next 5 years to enable 
a temporary extension for States and counties to make the transition so 
that the program can terminate as originally designed. Under the 
legislative proposal, States will continue to receive their share of 25 
percent fund payments under the 1908 Act after the 5-year extension 
period is over.
    Question 3. Your proposal also included over $26 million for land 
acquisition. How many acres of land do you propose to purchase? Why 
purchase additional land when we have trouble managing the land already 
owned by the federal government?
    Answer. The President's Budget proposes $16.8 million for the 
acquisition of specific tracts of lands, approximately 10,100 acres in 
total. The additional $8.3 million will be used for acquisition 
management costs, such as appraisal, survey, and title work, as well as 
some cash equalization for land exchanges. Tracts identified for 
acquisition have strong local support, political support, offer 
significant opportunities for high value recreation, aid in protection 
of threatened and endangered species habitat, and may protect cultural 
resources. Lands targeted for acquisition will enhance current National 
Forest System ownership and management.
    Question 4. Do you have adequate funding to support recovery and 
delisting of endangered species that live in National Forests--
particularly grizzly bears, wolves, and Canadian lynx?
    Answer. The U.S. Forest Service is an active participant in the 
recovery effort of several federally listed threatened and endangered 
species that live in or near national forests and grasslands. Recovery 
efforts include restoration of suitable habitat, support of resident 
populations, and reintroduction of species. Grizzly bears, wolves and 
lynx are only three species for which measures have been taken by the 
agency to aid federally listed species. The FY 2007 President's budget 
for wildlife and fisheries habitat management is sufficient to aid in 
species recovery and habitat management.
    The Grizzly Bear Conservation Strategy includes the following 
elements: (1) Population Standards and Monitoring, (2) Habitat 
Standards and Monitoring, (3) Management and Monitoring of Grizzly 
Bear/Human Conflicts, (4) Information and Education, (5) Implementation 
and Evaluation, and (6) Biology and Monitoring Review. The Conservation 
Strategy is the product of several years of collaboration between the 
six National Forests, two National Parks, Fish and Wildlife Service, 
Bureau of Land Management, Tribal governments, County Governments, and 
the States of Wyoming, Idaho, and Montana and was signed by all parties 
in 2003. Forest Plan Amendments are proposed as regulatory mechanisms 
to support delisting of the Yellowstone grizzly bear population as a 
threatened species under the Endangered Species Act.
    The agency is participating in the Gray Wolf Recovery, in 
Minnesota, Yellowstone, and throughout the wolfs range.
    Canada lynx recovery activities are ongoing, and several national 
forests are in the process of identifying and adopting lynx 
conservation measures, as Forest Plan amendments, under the National 
Forest Management Act. Two Draft Environmental Impact Statements were 
released to the public for review and comment, and Final Environmental 
Impact Statement's are being prepared. The Conservation Agreement is an 
interim measure meant to reduce or eliminate adverse effects of 
proposed projects to lynx and occupied habitat until long-term 
conservation measures are in place.
    Question 5. My understanding is that the Forest Service can 
appropriately use multiple funds for projects that have multiple 
objectives, for instance, hazardous fuels funding and timber sales 
funding for a project to harvest timber in order to achieve objectives 
for reduction of fire risk. I'm concerned that many timber sale 
projects are designed to achieve multiple objectives, but are funded 
primarily or solely with timber sales funding. Do you believe the FS is 
multi-funding projects to the degree possible?
    Answer. Yes, the Forest Service is doing this to the maximum extent 
possible. It should be noted that the funding mix for any project is 
based upon the purposes of the proposed action rather than upon the 
benefits to be derived from the project. In some cases, the purpose and 
need for the project may be to reduce hazardous fuels and the project 
will be accomplished through use of a commercial timber sale. In that 
case, Hazardous Fuels funds would finance the environmental analysis 
work and Forest Products funds would finance the timber sale. This is 
in keeping with the agency's Primary Purpose policies and the use of 
the funds as described in the agency's budget justification.
    Question 6. The Healthy Forest Restoration Act contains a pre-
decisional objection process and a streamlined judicial review process, 
both of which are designed to increase efficiency of decision-making 
and project implementation. How well are those processes working? Do 
you have a monitoring plan to demonstrate how well they are, or are 
not, working?
    Answer. The Forest Service is beginning to monitor planning and 
implementation of Healthy Forests Restoration Act projects along with 
all other projects through its new Planning, Appeals, and Litigation 
System (PALS) database. Fiscal year (FY) 2005 was the first full year 
of implementation for the planning portion of this tracking system. As 
data for FY 2005 are still being reviewed, no statistical conclusions 
concerning efficiency may yet be made. The appeals and litigation 
portions of this tracking system are still being developed.
    Question 7. Have you compared the average cost of NEPA compliance 
using Healthy Forest Restoration Act authorities to the same costs on 
non-Healthy Forest projects, and so, how do those costs compare?
    Answer. Dollar cost comparisons have not been made between Healthy 
Forests Restoration Act projects and hazardous fuels reduction projects 
planned under other authorities. However, the Forest Service is 
beginning to track the time involved from scoping to decision for 
projects of these types through its new Planning, Appeals, and 
Litigation System (PALS). As this tracking system is perfected, time 
comparisons between Healthy Forests Restoration Act projects and 
hazardous fuels reduction projects planned under other authorities will 
be possible.

      Responses of Mike Johanns to Questions From Senator Martinez

    Question 1. The Forest Service FY 2007 Budget proposes the sale of 
973 from the Ocala National Forest in Florida. According to your 
testimony regarding the sale of National Forest land, ``Many of these 
lands are isolated from other contiguous National Forest System lands, 
and because of their location, size or configuration are not efficient 
to manage as a component of the National Forest system. ``
    How would you characterize the lands being sold in Florida?
    Answer. Of the 14 tracts on the Ocala National Forest that make up 
the 973-acre total, approximately 50 percent is considered wetland or 
``swampy''. These tracts are situated near the Ocklawaha River, and are 
influenced by the associated perennial streams and floodplain. Mixed 
vegetation exists on the tracts, with little timber value estimated for 
the bulk of the acreage. Several tracts are surrounded by State-owned 
land managed by the Office of Greenways Trails. The State manages 
acreage in this area previously acquired for purposes of the defunct 
Cross Florida Barge Canal.
    Question 2. According to concerned constituents in my state, the 
Ocala National Forest absorbs and filters more pure drinking water than 
any other place in Central Florida. What sort of steps did the 
Administration go through to determine that these lands in the Ocala 
National Forest were not important enough to be protected? What sort of 
mitigation is being done for the impacts on drinking water for central 
Florida?
    Answer. The Forest Service has long recognized the importance of 
the springs that provide drinking water originating in the Ocala 
National Forest. Recharge areas have always been managed and protected 
to insure high quality water, and these standards are clearly defined 
in the land management plan. There is only one water quality issue that 
has arisen recently and that involves elevated fecal coliform bacteria 
levels near Juniper Springs. Suspecting that nearby public toilets 
could be causing this problem, the forest took immediate action to 
replace them. Groundwater monitoring will be conducted to insure that 
no leaks exist. There are septic systems on private lands located 
within the forest boundary. The agency does not have regulatory control 
over their permitting or maintenance, nor does the Forest Service seek 
such authority. If elevated coliform bacteria levels persist, it may be 
due to poorly functioning private septic systems.
    Question 3. Florida is a fast-growing state. In the next census it 
is expected that our population will surpass New York in the next 
census and we will be the third most populous state in the country. I 
am concerned that as our state continues its unprecedented growth, we 
could lose our limited amount of public land and wetlands.
    What type of commitment are USDA and the Forest Service willing to 
make to ensure that we will not continue to lose our valuable open 
spaces?
    Answer. The loss of public lands has been identified by the Chief 
as one of the four greatest threats to the public lands administered by 
the Forest Service. The agency recognizes the importance of wetlands 
and wetland habitat which are often embedded within the larger forest 
ecosystems. Land management plans include guidelines, standards, and a 
specific set of recommendations for maintenance, restoration, and 
protection of these embedded habitats. Bogs, flatwoods, coastal plain 
sinkholes and ponds, swamps, and marshes are each addressed within land 
management plans. In addition, these wetland habitats are specifically 
managed for the unique characteristics intrinsic to each system, often 
in conjunction with, or complementary to, management actions taken on 
the upland forested sites. In the Administration's proposal, tribes, 
local and State governmental entities, and land conservation non-profit 
organizations will be given the first chance to acquire offered 
properties at market value. Also, where needed to protect the public 
interest, the Secretary may reserve or restrict use on the offered 
lands.
    The Department and the Forest Service are committed to meeting the 
growing demand for open space to counteract the increasing urbanization 
and development of rural landscapes. The loss of public lands has been 
identified by the Chief as one of the four greatest threats to the 
public lands administered by the Forest Service. The agency recognizes 
the importance of wetlands and wetland habitat which are often embedded 
within the larger forest ecosystems. Land management plans include 
guidelines, standards, and a specific set of recommendations for 
maintenance, restoration, and protection of these embedded habitats.
    The President's FY 2007 budget requests $61.5 million (a $5 million 
increase over FY 2006) for the Forest Legacy program to meet the 
growing demand for private forestland conservation. The Forest Legacy 
program provides financial incentives to private landowners to conserve 
their forests to prevent conversion and fragmentation.
    In addition, through the Land Acquisition and Land Exchange 
Programs of the Forest Service, National Forest lands have seen a net 
increase of over 417,000 acres in the last five years, which contribute 
as a valuable component to the preservation of open space on Federal 
lands.
    Question 4. How much revenue do you expect to be generated from the 
sale of land in the Ocala National Forest? Do you expect that it will 
adequately meet the needs of rural school systems in Marion, Putnam, 
and Lake Counties?
    Answer. Currently the Forest Service has identified 973 acres of 
land within the Ocala National Forest as potentially eligible to be 
conveyed to provide receipts for the Administration's proposal to fund 
an extension of the SRS Act. We have identified over 300,000 acres of 
national forest lands from across the country that are potentially 
eligible for conveyance under the proposal. The intent is to sell 
enough National Forest System land to provide $800 million for a 5-year 
extension of the SRS Act.
    The value of individual parcels of land will be determined through 
appraisals or by competitive sale once they have been identified and 
approved for conveyance. There have been no appraisals of the lands 
identified on the Ocala National Forest. Approximately 486 acres of the 
total 973 acres are upland and possibly suitable for development. The 
remaining lands are wetlands and submerged lands that would have more 
limited utility. The Administration's proposal is to create a national 
land sales fund to provide a funding source for the program, which 
meets the President's commitment to States and counties that have been 
impacted by the ongoing reduction in receipts primarily due to lower 
timber harvest levels on Federal lands. The proposal does not intend 
for there to be a direct connection between the number of acres sold 
within a State or Forest to the payment that is made under the Secure 
Rural Schools Act.
    Question 5. How much of the proceeds generated from the land sale 
will stay in Florida?
    Answer. The proposal does not intend for there to be a direct 
connection between the number of acres sold within a State or national 
forest to the payment that is made under the Secure Rural Schools (SRS) 
Act of 2000. The proposal does provide, where feasible, for regional 
equity to be considered in the selection of lands that may be available 
for disposal under the Act. The SRS Act addresses the decline in recent 
years of revenue from timber harvest received on Federal land, which 
have historically been shared with counties. These funds have been used 
for schools and roads. The proposed amendment to SRS provides payments 
that would be continued an additional five years. Provisions will be 
incorporated to cap those payments, adjust the current payment schedule 
downward each year and eventually phase out payments. Payments under 
the proposal will target those areas most affected by the loss of 
timber receipts.

       Responses of Mike Johanns to Questions From Senator Talent

    Question 1. More than 21,000 acres are on the chopping block in 
Missouri, second only to California and Idaho. How is the revenue 
distributed back to the school districts? Will Missouri receive the 3rd 
most funding as it is slated to be a top seller?
    Answer. The Administration's proposal is to create a national land 
sales fund to provide a funding source for a program that meets the 
President's commitment to States and counties that have been impacted 
by the ongoing reduction in receipts primarily due to lower timber 
harvest levels on Federal lands. The proposal does not intend for there 
to be a direct connection between the number of acres sold within a 
State to the payment that is made under Secure Rural Schools and 
Community Self Determination Act (SRS). However, the proposal does 
provide, where feasible, for regional equity to be considered in the 
selection of lands that may be available for disposal under the Act.
    The proposed amendment to SRS provides payments that would be 
continued an additional five years. Provisions will be incorporated to 
cap those payments, adjust the current payment schedule downward each 
year and eventually phase out payments. Payments under the proposal 
will target those areas most affected by the loss of timber receipts.
    Question 2. Will there be any effort to ensure that revenues 
generated from these land sales will be distributed back into the 
school districts that are impacted?
    Answer. The SRS Act of 2000 addresses the decline in revenue 
received in recent years from timber harvest on Federal land, which has 
historically been shared with counties. These funds have been used for 
schools and roads. For each year of the current authorization, the law 
allows States to receive a payment from the Federal Government based on 
the State average of their top 3 years of receipts from National Forest 
System and BLM lands received during the period of 1986-1999.
    The purpose of the Act is to stabilize payments to counties that 
help support roads and schools, provide projects that enhance forest 
ecosystem health, and provide employment opportunities, as well as to 
improve cooperative relationships among Federal land management 
agencies. During the current authorization period of SRS, funds for 
these payments have come from national forest receipts and Treasury 
receipts. The Administration's proposal is to convey a limited number 
of National Forest System land parcels to provide a funding source for 
SRS once reauthorized. These payments will be targeted to the most 
affected areas, capped, adjusted downward each year, and eventually 
phased out.
    Question 3. What level of input will the public and the local 
community leaders have in determining which lands go on the market?
    Answer. The Forest Service received no public input regarding the 
identification of the potentially eligible list. A Federal Register 
Notice was issued on February 28, 2006, inviting comments on the 
proposal and the parcel list. However, the public has been encouraged 
to comment on the list as of the date that the list was made public 
following the delivery of the President's Budget to Congress. All 
comments received before, and in response to the Federal Register 
notice, are being reviewed. Parcel-specific comments will be shared 
with the appropriate field units.
    Question 4. What efforts will you take to ensure that these lands 
are well managed?
    Answer. Tribes, local and State governmental entities, and land 
conservation non-profit organizations will be given the first chance to 
acquire offered properties. Also, where needed to protect the public 
interest, the Secretary may reserve or restrict use on the offered 
lands, for example, to secure continued public access or protect a 
significant historic resource.
    Question 5. The MTNF has a great deal of historically significant 
areas? Are any of these areas on the proposed list for sale?
    Answer. During the selection process for identification of 
potential tracts to include in the administration's proposal, Mark 
Twain National Forest employees considered the impacts on known 
historic and cultural resources. However, not all of the selected 
tracts have been subjected to on-the-ground cultural resource surveys.

      Responses of Mike Johanns to Questions From Senator Bingaman

    Question 1. Please provide a list of the number of acres conveyed 
and acquired through land exchanges in each of fiscal years 1999 
through 2005, specifically identiffing how many acres were traded in 
each fiscal year pursuant to a specific legislatively authorized or 
directed exchange.
    Answer. A list detailing land exchange information for the years 
1999-2005 is provided below. This information contains acres acquired, 
acres conveyed, dates, and the authority used or whether completed 
administratively. It is important to note that only a very small number 
of exchanges have been legislated compared to the number completed 
administratively.
    (See accompanying attachment)*
---------------------------------------------------------------------------
    *The attachment has been retained in committee files.
---------------------------------------------------------------------------
    Question 2. In FY2006 Budget submission highlighted the President's 
proposal for a $22.8 million increase for the Forest Inventory and 
Analysis program in order to cover 100% of America's forests with an 
annual inventory. Although it was described as a critical program, the 
FY07 Budget proposes to cut the program and cover only 90% offorests. 
Can you explain why the Budget no longer proposes to fully fund the FIA 
program and whether the Forest Service expects to conduct an inventory 
in New Mexico during FY06 and FY07 (and if not, why not)?
    Answer. Although the FY 2006 President's proposal requested a $22.8 
million increase for the FIA program, the FY 2006 Enacted budget 
provided an increase of only $3.5 million over the FY 2005 level. The 
FIA program is proposed at about the same level as FY 2006 under the 
Forest and Rangeland Research Budget Line Item. Funding for FIA under 
the State and Private Forestry Budget Line Item has been redirected to 
other areas. Due to the overall reduction of funding, we will 
reschedule the inventory of New Mexico.
    Question 3. How much in Equal Access to Justice Act fees has the 
Forest Service paid in each of fiscal years 1999 through 2005?
    Answer. The attached table contains the amount of attorney fees 
paid by the Forest Service from fiscal years 1999--2005. The figures 
below represent estimated payments of attorneys fees made by the Forest 
Service under: 1) the Equal Access to Justice Act (EAJA), 28 USC 2412, 
which requires that plaintiffs be a ``prevailing party'' in a lawsuit 
against the agency and fit within a specific class (e.g. individual 
with net worth less than $2 million, charitable or tax-exempt 
organization, sole owner of unincorporated business with net worth less 
than $7 million); and 2) the Department of Justice's general settlement 
authority at 28 USC 2414 which does not impose any limitations on the 
payment of attorneys fees to settle a lawsuit against the agency.

------------------------------------------------------------------------
                         Fiscal Year                            Dollars
------------------------------------------------------------------------
1999........................................................     814,774
2000........................................................     602,698
2001........................................................     581,567
2002........................................................   1,077,441
2003........................................................   1,236,668
2004........................................................   1,557,804
2005........................................................   1,131,578
                                                             -----------
    Total...................................................   7,002,530
------------------------------------------------------------------------

       Responses of Mike Johanns to Questions From Senator Wyden

    Question 1. Economic Action Programs: In the FS budget 
justification you state that the Economic Action Programs are 
duplicative of Rural Development programs. Can you tell me how many 
grants were awarded through this supposedly duplicative program to:

          a. Rural forest-dependent communities?
          b. How many of those grants went to capacity building?
          c. How many of those grants supported forest restoration 
        projects?
          d. How many of those grants supported the marketing and 
        utilization of small diameter material?

    Answer. The duplication referred to in the FY 2007 Forest Service 
Budget Justification relates not to individual projects, but to 
overlapping authorities for programs. Certainly, taxpayer interests are 
not served when multiple programs provide funding for the same project. 
The Economic Action Program is redundant with and duplicative of 
authorities for other USDA rural development programs and other Forest 
Service programs that both directly and indirectly assist communities. 
Forest Service programs that benefit communities include forest health 
management, state and volunteer fire assistance, forest stewardship, 
urban and community forestry, and the hazardous fuels reduction 
program. In addition, the Forest Service extensively uses Wyden 
amendment authority to benefit communities situated near national 
forests.
    For those places that already have adequate community capacity to 
compete for loans and grants, USDA's Rural Development programs can 
address the needs via the following programs:

  <bullet> Business and Industry guaranteed loans--Provides up to 90 
        percent guarantee of a loan made by a commercial lender for 
        agricultural enterprises. The business applying for the loan 
        must already have strong equity and collateral.
  <bullet> Rural Business Enterprise Grants--Provides grants to public 
        institutions to assist agricultural business. Grants do not go 
        directly to businesses.
  <bullet> Intermediary Relending Program--Provides grants for 
        intermediaries to re-lend through an adequately secured loan 
        for new agricultural businesses, and expansion of those 
        existing businesses unable to obtain a conventional loan.
  <bullet> Rural Business Opportunity Grants--Promotes sustainable 
        economic development in rural communities with exceptional 
        needs such as natural disasters, structural changes, and 
        persistent poverty or population decline. Provides grants for 
        economic planning, business assistance, and training to obtain 
        specific USDA-RD program funding.
  <bullet> Cooperative Development Grants--Grants are available for 
        cooperative development to establish and operate centers for 
        cooperative development.

    In FY 2006, the Forest Service enacted budget included $9.5 million 
designated by earmarks for the State and Private Forestry Economic 
Action Programs. Project grants were awarded to the following 
categories listed in the question as follows (Note that several of the 
project grants respond to one or more of the question categories, 
however the primary purpose of the project grant is where it is listed 
below):



                  A. RURAL FOREST-DEPENDENT COMMUNITIES
------------------------------------------------------------------------
                                                                Funding
                  Project Name and Location                   Level  ($)
------------------------------------------------------------------------
New England Value-Added Wood Products Project, MA...........     327,000
New York City Watershed, NY.................................     398,000
Allegheny Area, PA..........................................     249,000
Northern Forests Partnership, NH............................     348,000
Madison County Forest Recreation Center, NC.................     995,000
------------------------------------------------------------------------



                          B. CAPACITY BUILDING
------------------------------------------------------------------------
                                                                Funding
                  Project Name and Location                   Level  ($)
------------------------------------------------------------------------
Custer County Economic Development, ID......................     995,000
Hubbard Brook Foundation, NH................................     746,000
Folkmoot USA, NC............................................     498,000
------------------------------------------------------------------------



                     C. FOREST RESTORATION PROJECTS
------------------------------------------------------------------------
                                                                Funding
                  Project Name and Location                   Level  ($)
------------------------------------------------------------------------
Mica Creek, University of ID................................     299,000
Hinkle Creek Watershed, OR..................................     498,000
------------------------------------------------------------------------


         D. MARKETING AND UTILIZATION OF SMALL-DIAMETER MATERIAL
------------------------------------------------------------------------
                                                                Funding
                  Project Name and Location                   Level  ($)
------------------------------------------------------------------------
Education and Research Consortium, NC.......................     995,000
Fuels-In-Schools (Biomass), MT..............................   1,493,000
Hardwood Scanning Center, Purdue University, IN.............     498,000
Wood Enterprise Agent, MT...................................     398,000
Private Woodland Owner Database, WA.........................     498,000
Ketchikan Wood Tech. Center, AK.............................     398,000
------------------------------------------------------------------------


       Response of Mike Johanns to Question From Senator Johnson
    Question 1. The President's Fiscal Year 2007 budget includes a $30 
million increase to the forest products account. I am concerned, 
however, that entire $30 million increase plus an additional $11 
million from the forest products account is directed exclusively to the 
Pacific Northwest and the Northwest Forest Plan. I support increased 
funding for the forest products line item and applaud your emphasis on 
forest plan implementation. However, I am concerned that the 
President's budget proposes to fund the Northwest Forest Plan at the 
expense of the timber sale program on the Black Hills National Forest 
and Region 2. The Black Hills National Forest completed the Phase II 
Amendment to the Forest Plan in 2005. I appreciated your meeting with 
me and the other members of the South Dakota congressional delegation 
last year to discuss rebuilding the timber sale program on the Black 
Hills National Forest.
    Can you tell me how the Forest Service proposes to use the $30 
million increase in the forest products account to accomplish the 
Services forest management objectives in the Pacific Northwest while 
also increasing the timber sale program on the Black Hills National 
Forest?
    Answer. The additional funding for the Northwest Forest Plan will 
allow the agency to offer 800 MMBF of timber volume, improve over 3,900 
acres of terrestrial wildlife habitat and 120 miles of fisheries 
habitat, treat hazardous fuels in the wildland-urban interface and 
municipal watersheds, and address reforestation needs of recent large 
forest fires. The USDA Forest Service strongly supports the timber sale 
program on the Black Hills National Forest, and the agency is committed 
to allocating a combination of Forest Products and Hazardous Fuels 
funding to each region that is not less than the FY 2006 allocation. 
This is necessary to ensure that critical vegetation management program 
continuity is maintained. The Forest Service determines within each 
region where the Forest Products funding should be allocated to best 
support forest management programs, while using Hazardous Fuels funding 
to address the highest priority fuel reduction needs.

      Responses of Mike Johanns to Questions From Senator Cantwell

    Question 1. Does the Forest Service have any plans to edit or 
replace the ``10 Standard Firefighting Orders'' for wildland 
firefighters?
    Answer. The Forest Service has no plans to edit or replace the 10 
Standard Orders. The 10 Standard Orders are fundamental operating 
principles of fire suppression actions.
    Question 2. Does the Forest Service have any plans to edit or 
replace the 18 ``Watch Out Situations'' for wildland firefighters?
    Answer. The Forest Service has no plans to edit or replace the 18 
Watch Out Situations. The 18 Watch Out Situations are a compilation of 
common hazards in the wildland fire environment that assist 
firefighters in their development and maintenance of situational 
awareness.
    Question 3. Can you please provide the specific amount of money 
spent on wildland firefighter training activities nationally in FY 
2006?
    Answer. It is anticipated that the amount of money spent on 
wildfire training during FY2006 will be similar to the $29.5 Million we 
have spent on training for each of the past several years. 
Approximately $7.1 Million is spent in support of Regional and National 
Suppression and Fire Use Academies, and Training Centers. The cost for 
regional and local fire training is approximately $22.4 Million.
    Question 4. Can you please provide the specific amount of money 
spent on wildland firefighter training activities for each of the 10 
Forest Service regions in FY 2006?
    Answer.

  APPROXIMATE FY2006 ALLOCATION OF WILDFIRE TRAINING DOLLARS BY REGION
------------------------------------------------------------------------
                                                     Fire      Training
                     Region                        Personnel     ($)*
------------------------------------------------------------------------
1...............................................    3,529      2,621,000
2...............................................    2,050      1,523,000
3...............................................    2,858      2,128,000
4...............................................    3,149      2,352,000
5...............................................    6,446      4,794,000
6...............................................    5,465      4,077,000
8...............................................    3,760      2,800,000
9...............................................    2,442      1,814,000
10..............................................      399        291,000
                                                 -----------------------
    Total.......................................   30,100     22,400,000
                                                 =======================
------------------------------------------------------------------------
* Based on FY2005 Regional training costs of $22.4 Million.

    Question 5. Can you please provide the specific amount of money 
spent on wildland firefighter training activities in Washington State 
in FY 2006?
    Answer. The number of Forest Service fire personnel that are in the 
State of Washington (FS Region 6 in the table above represents 
Washington and Oregon) is 1,760. The annual cost of training Forest 
Service personnel in Washington State is approximately $1,310,000 per 
year.
    Question 6. How much funding is available for wildland firefighter 
training in the Fiscal Year 2007 USFS-Preparedness request?
    Answer. The agency is committed to providing sufficient funds in 
order that all of our fire personnel receive appropriate safety 
training. The agency will fund firefighter training at approximately 
$29.5 million for FY 2007, which is comparable to previous years.
    Question 7. As you know, I introduced S. 906, the Wildland 
Firefighter Safety Act of 2005, last year. An identical piece of 
legislation, S. 2410 was introduced during the 108th Congress. Section 
2(d) of the bill requires that federal contracts or agreements with 
private firefighting entities require those entities to provide 
training consistent with the qualification standards of the National 
Wildfire Coordinating Group and would require the Secretaries 
ofAgriculture and Interior to develop a program to monitor and enforce 
this requirement.
    Question 8. During a committee hearing on S. 2410, on September 29, 
2004, Christopher Pyron, USFS-Deputy Chief for Business Operations said 
that section of the bill, ``is good common sense.'' Mr. Pyron also 
said, ``we would not object to that part of the bill.'' Do Mr. Pyron's 
earlier testimony still reflect the position of the Forest Service as 
it relates specifically to Section 2(d) of the bill?
    Answer. In written testimony on S. 2410 on September 29, 2004 
before the Senate Energy and Natural Resources Committee, Subcommittee 
on Public Lands and Forests, Forest Service Deputy Chief for Business 
Operations, Christopher Pyron, stated that, ``Forest Service and 
Department of the Interior contracts require firefighting training and 
experience as prescribed by the qualification standards established by 
the National Wildfire Coordinating Group.'' This written testimony also 
expanded on the positive steps the Forest Service has implemented to 
monitor enforcement and compliance.
    The Secretaries of Agriculture and the Interior believe the 
following language would address the concerns of the Senator and the 
Administration regarding the performance and efficacy of Federal 
wildland firefighter safety, training practices, and activities: ``The 
Secretaries shall, on an annual basis, jointly submit to Congress a 
report on the performance and efficacy of Federal wildland firefighter 
safety and training practices and activities during the previous fiscal 
year. The report for each fiscal year shall be submitted by February of 
the following fiscal year, and shall address both Federal resources and 
state or private resources acquired for firefighting purposes by means 
of any contract or agreement.''
    Question 9. Can you please explain how the 1.5% reduction in 
funding to the USFS-Preparedness account is will allow the Forest 
Service to execute on anticipated wildfire prevention, detection, 
information and education, pre-incident training, equipment and supply 
purchase and replacement during the 2007 fire season?
    Answer. The Forest Service will achieve efficiencies through 
program leadership and a reduction in agency-wide overhead. The agency 
will maintain a level readiness comparable to that attained in FY 2005 
and planned for FY 2006. This includes prevention, detection, 
information and education, training, equipment and supply purchase and 
replacement.
    Question 10. I understand the Forest Service is considering 
launching competitive sourcing studies on two-thirds of its workforce, 
according to a draft agency memo. Can you please describe in detail the 
impact this would have on Forest Service lands management in Washington 
State?
    Answer. At the USDA Forest Service, feasibility studies are used to 
determine what, if any, functional areas are likely to produce a 
significant performance or financial return on investment if submitted 
to further management analysis. The outcomes of such studies recommend 
whether or not to pursue a Business
    Process Reinvention (BPR), OMB Circular A-76 competition, some 
other business process improvement technique or maintain the current 
status. The USDA Forest Service is considering launching feasibility 
studies on those commercial activities that have not yet been examined 
through either Business Process Reengineering or OMB Circular No. A-76 
processes. AS stewards of America's national forests, it is essential 
that the Forest Service regularly assess its organization to insure 
that finite resources are optimally applied to performing its mission. 
Feasibility studies are a tool--a management process--specifically 
designed to objectively, comprehensively and transparently identify 
opportunities for improvement in agency programs to be achieved in a 
variety of ways. The feasibility study process is used to identify 
functional areas that might benefit from further analysis, after 
considering any impacts to the agency mission. This might include lands 
management in Washington State.
    Question 11. In regards to the proposal in President's budget to 
sell off 300,000 acres of U.S. forest service lands to pay for the 
County Payments program, according to your agency, ``the parcels 
identified for proposed sale meet the criteria in existing Forest Land 
Management plans as potentially suitable for conveyance.'' What were 
the criteria? Was this a GIS exercise? If so, what were the parameters? 
Were individual parameters self limiting, or did each parcel have to 
meet several criteria to be chosen as disposable? What role did the 
regional offices play in these decision making?
    Answer. Identification of the potentially eligible parcels was 
accomplished by a variety of methods, including the use the agency's 
Automated Land Project (ALP) Geospatial Information System (GIS). 
Forests were asked to refine the lands lists before submission. Land 
exchange conveyance criteria were used as a starting point because land 
management plans anticipate exchange as the most likely method of 
conveyance. Criteria addressing land exchange or conveyances differ 
between land management plans. However, in general, land exchange 
criteria include disposal of isolated tracts and lands that have lost 
their National Forest System character due to encroachment or 
conflicting uses on adjacent private lands.
    Question 12. Does the Forest Service have the administrative 
authority to sell off the parcels proposed in the President's budget, 
or do they need additional legal authority?
    Answer. The Forest Service does not have the administrative 
authority to sell the parcels proposed. Legislation will need to be 
enacted providing authority to sell lands as a means of funding the 
Secure Rural Schools program at levels identified in the President's 
budget.
    Question 13. Please detail every parcel within Washington state 
proposed for sale under the President's budget proposal.
    Answer. There are approximately 7,425 acres identified that are 
potentially eligible for disposal in the state of Washington. The 
criteria used for selection of potentially eligible parcels in 
Washington State were small, isolated parcels or edgeholdings, less 
than 640 acres in size. Parcels are not expected to contain critical 
resource values, floodplains or wetland restrictions, or have 
Endangered Species Act issues. The following internet link will give 
you Washington State parcels proposed for disposal: http://
www.fs.fed.us/land/staff/spd.html#Washington
    Question 14. The agency also states that ``many of these lands are 
isolated from other contiguous National Forest System lands, and 
because of their location, size or configuration are not efficient to 
manage as a component of the National Forest system.'' How does the 
Forest Service define isolated? Are you aware that there are parcels 
identified that are less than one tenth of a mile away from the 
contiguous forest, and some that are part of the contiguous forest? How 
were such parcels chosen? Are all these lands previously categorized as 
parcels suitable for land exchange? If we sell off all these lands, 
will all future land exchanges be precluded?
    Answer. In general, an isolated tract is defined to be any tract of 
National Forest System (NFS) land that is surrounded by private lands. 
Some parcels may be bordered on 2 to 3 sides by private land. Whether 
surrounded or merely bordered, there may be encroachment when private 
lands are developed. Lands that have lost their NFS character are 
commonly identified for conveyance through exchange.
    Identification of the potentially eligible parcels was accomplished 
by a variety of methods, including the use the agency's Automated Land 
Project (ALP) geospatial information system (GIS). Forests were asked 
to refine the lands lists before submission. Land exchange conveyance 
criteria were used as a starting point because land management plans 
anticipate exchange as the most likely method of conveyance. Criteria 
addressing land exchange or conveyances differ between land management 
plans. Many plans simply list criteria to be considered, rather than 
geographically identifying parcels, therefore, some of these lands may 
not have been specifically identified as suitable for land exchange 
during the planning process.
    The land exchange and land acquisition programs will continue to 
provide opportunities for the acquisition of high priority tracts 
within the National Forest System.
    Question 15. The traditional role of land sale has been to use 
funds to acquire lands that fulfill the National Forest System 
interests. If these sales go through, what is the Forest Service's 
intent to replace the more than 300,000 acres that would be lost to the 
National Forest System?
    Answer. The land exchange and land acquisition programs will 
continue to provide opportunities for the acquisition of high priority 
tracts within the National Forest System. Although funding levels for 
land acquisition are down from prior years, there will continue to be a 
steady gain of net acres due to purchases; donations; and the nature of 
land exchanges, which often result in more lands being acquired than 
conveyed.
    Question 16. The Legislative Proposal of the Forest Service budget 
Justification identifies wilderness, wild and scenic rivers, national 
recreation areas. monuments and historic cites as areas ``expressly'' 
excluded from land sales. Does this mean that roadless areas, old-
growth reserves, and critical wildlife habitat are included in the 
300,000-plus acres already identified as ``disposable?'' How about 
wilderness research areas? How about popular recreation areas, and 
areas that provide access to places and rivers? Given the isolated 
nature of some of these areas, and the Forest Service's support of 
scientific research, why aren't isolated areas used to perform research 
separated from the functions of the greater contiguous forest?
    Answer. All land sales proposed under the administrations proposal 
are subject to requirements of the National Environmental Policy Act 
(NEPA). Although a categorical exclusion is provided for these sales, 
use is subject to extraordinary circumstances procedures established by 
the Forest Service pursuant to 1508.4 of Title 40, Code of Federal 
Regulation. Resource conditions that would be considered in determining 
whether extraordinary circumstances related to the proposed action 
warrant further analysis and documentation in an Environmental 
Assessment (EA) or an Environmental Impact Statement (EIS) are: a) 
Federally listed threatened or endangered species or designated 
critical habitat, species proposed for Federal listing or proposed 
critical habitat, or Forest Service sensitive species, b) Flood plains, 
wetlands, or municipal watersheds, c) Congressionally designated areas, 
such as wilderness, wilderness study areas, or national recreation 
areas, d) Inventoried roadless areas, e) Research natural areas, f) 
American Indians and Alaska Native religious or cultural sites, g) 
Archaeological sites, or historic properties or areas.
    If research is separated from the functions of the greater 
contiguous forest, the results obtained have less utility and less 
value to forest managers. Since research is expensive and time 
consuming, the Forest Service needs to obtain as much utility and value 
from its research as possible. Further, if the term function implies 
ecological relationships (the manner in which forests function), this 
can be investigated any place conditions are appropriate for the 
functions being investigated. It is more efficient to do the work where 
there is good access.
    Question 17. The eastern regions of the Forest (regions 8 and 9) 
make up 13% of the National Forest System. Yet, almost 30% of the total 
lands for sale are in these two regions. In addition, these two regions 
have the highest urban populations that are in need of increasing 
amounts of recreational opportunities and in greater need for 
protecting wildlife habitats, and sources of clean air and water. How 
will the Forest Service deal with this dilemma? The Mark Twain National 
Forest, in Region 9, has identified almost 22,000 acres for proposed 
sale. How would you juste selling such a large portion of Missouri's 
National Forest?
    Answer. The Administration's proposal authorizes the sale of 
National Forest System (NFS) land parcels that may be appropriate for 
conveyance because they are isolated or considered inefficient to 
manage due to their location and other characteristics. Counties 
throughout the U.S. have received payments under the current County 
Payments Act and would continue to do so in the Budget's legislative 
proposal, so it is reasonable to identify parcels nationally that could 
be eligible for sale. It is expected that even with the proposed land 
sales there will be a no net loss of federal lands to the National 
Forest System land base. In addition, the lands that are conveyed into 
private ownership will contribute to the county tax base and improve 
receipts for rural schools and other programs.
    The National Forests in the Eastern and Southern Regions have a 
more fragmented land ownership pattern, and are more likely to have 
isolated tracts of the kind identified under this proposal than Forests 
in western regions which have more consolidated ownership. The sale of 
these lands will reduce management inefficiencies and administrative 
costs to the Forest Service, enabling more funds to be used to manage 
NFS lands that provide critical resource protection for wildlife and 
watersheds and are most important to the public.
    Question 18. Please describe how Senate Bill 781, the Right-to-Ride 
Livestock on Federal Land Act of 2005, would affect or change current 
U.S. Forest Service land management practices or relevant decision-
making. Does the Forest Service have any particular policy regarding 
the use of pack and saddle stock animals? Please describe any instances 
in the last 5 years where trail accessibility was changed specifically 
for pack and saddle stock animals anywhere in U.S. Forest Service 
lands. If there are instances, please explain the justification for 
closing these trials.
    Answer. The Administration has previously testified on similar 
legislation to S. 781. (See Statement of Chad Calvert, Deputy Assistant 
Secretary, U.S. Department of the Interior, before the subcommittee on 
National Parks, Recreation and Public Lands of the House Committee on 
Resources, concerning H.R. 2966, September 30, 2003). At that time, the 
Department of the Interior expressed concern with provisions in the 
bill that appear to give more weight to one recreational use than to 
others without consideration of the agency's mission.
    The Forest Service has a long-standing history in the use of pack 
and saddle stock on National Forest System (NFS) lands. NFS lands 
accommodate hikers, bikers, off-highway vehicle users along with pack 
and saddle users. There are thousands of miles of trail that are 
actively managed for pack and saddle stock.
    Some limitations have been implemented on the numbers of pack and 
saddle stock within designated wilderness areas where group size is an 
issue. These decisions are made at the forest or regional level. For 
example, within the Okanogan National Forest wilderness area in 
Washington there is a maximum party size of a combination of 12 people 
and/or livestock.
    Instances of trail closings for pack and saddle stock would be made 
primarily for resource protection, such as unstable soils. For example, 
in December 2005 the Inyo National Forest, in California, issued a 
Final Environmental Impact Statement (FEIS) and Record of Decision on 
Trail and Commercial Pack Stock Management in the Ansel Adams and John 
Muir wildernesses. Although the FEIS disclosed that there was minimal 
impact by pack and saddle stock wilderness wide, the FEIS did determine 
that there were specific locations within the wilderness that were 
experiencing adverse impacts by pack and saddle stock. In order to 
protect the wilderness character of those specific locations, the 
timing, frequency, intensity and location of commercial pack stock use 
was managed. This decision was conducted with extensive public 
involvement and in compliance with the National Environmental Policy 
Act.
    Question 19. Is it true that on average the trails and recreation 
budget for National Forests in Washington state has declined 5 percent 
each year, despite comparable increases in the overall Forest Service 
recreation budget? How do you justify these cuts? Please estimate how 
these cuts have lowered the ability of the Forest Service to leverage 
tens of thousands of hours of volunteer trail maintenance.
    Answer. Over a 3-year period between fiscal year 2003 and 2005, 
recreation and trails funding for the national forests in the State of 
Washington did decline on average by approximately five percent, while 
the national funding for these two programs increased by approximately 
four percent. However, during this time period, the Forest Service had 
adopted and implemented a budget formulation and allocation model 
called the Budget Formulation and Execution System (BFES), which relied 
on field developed data. The criteria that each unit used to determine 
program levels was based on the local units focus and emphasis for each 
program, balanced with overall needs for the entire land base that they 
managed. An important facet of BFES was that Forests could ``weight'' 
program requests to meet local resource management priorities, and 
``trade-off' other programs that would then receive less emphasis and 
funding. Thus, a national forest in Washington could develop a budget 
that emphasized fuels management, watershed restoration, and vegetation 
management, and deemphasize the recreation program. Such a budget would 
have been very much in line with the national and regional priorities 
for healthy forests and reduction of fire risk.
    Nationally, over this same time period, funding for challenge cost 
share projects rose from $5.6 million in FY 2003 to $7.7 million in FY 
2005 for trails related work. In FY 2003 approximately $2.6 million of 
appropriated trail funds were matched by $3.0 million of cash and in-
kind contributions by partners for trails related work. In FY 2005, 
$2.9 million of appropriated trails funds were matched by over $4.8 
million of cash and in-kind contributions. Of the total $7.7 million in 
FY 2005, over 200,000 volunteer hours were contributed on the five 
designated Forest Service National Scenic and Historic Trails. The FY 
2006 appropriation is slightly below FY 2005, but if recent trends 
hold, the contribution to partnerships from appropriated trails funds 
and partnership cash and in-kind services should remain fairly steady. 
For FY 2007, the agency will encourage field units to use a minimum of 
$5 million in total appropriated trails funding to help foster new 
partnerships and expand existing partnerships.
    Question 20. I am concerned about decreasing staff levels in 
Washington state's national forests. Could please provide me with a 
chart that shows staffing level changes to the years 2000, 2002, 2004, 
and 2006. If there have been cuts to staffing levels, please estimate 
how this situation has impacted typical forest service 
responsibilities.
    Answer.

         PERMANENT FOREST SERVICE EMPLOYEES IN WASHINGTON STATE
------------------------------------------------------------------------
                         Fiscal Year                           Employees
------------------------------------------------------------------------
2000........................................................     1594
2001........................................................     1647
2002........................................................     1647
2003........................................................     1640
2004........................................................     1637
2005........................................................     1515
2006........................................................     1492
------------------------------------------------------------------------

    The reductions between 2004, 2005 and 2006 are due primarily to the 
IT and Budget and Finance restructuring. Region 6 also downsizes as 
needed to live within the priorities of their programs. The IT and 
Budget and Finance restructuring did not affect the Region's overall 
mission as those functions are done elsewhere. We expect the same will 
be for Human Resources Management functions once the BPR is completed.
    Question 21. I believe the Forest Service is on record in support 
of the ORV rule. Does this year's budget request provide enough funding 
for ranger districts to comply with the ORV rulemaking?
    Answer. On November 9, 2005, the Department of Agriculture 
published a final travel management rule (36 CFR parts 212, 251, 261, 
and 295) governing the use of motor vehicles on National Forest System 
lands. The Forest Service believes that this rule represents a critical 
step in addressing unmanaged recreation, which is one of the four key 
threats to national forests and grasslands.
    The travel management rule requires each national forest to 
designate those roads, trails, and areas open to motor vehicle use by 
vehicle class and, if appropriate, by time of year. Decisions about 
which roads, trails, and areas should be designated will be made at the 
local level, with public participation and coordination with State, 
county, and tribal governments. The agency intends to complete route 
designation within the next 4 years. On most national forests, travel 
planning will require a substantial effort, including environmental 
analysis and documentation prepared in an open, collaborative process.
    Travel management is a key agency priority, and the Forest Service 
will prioritize its work and accomplish travel planning within the 
funds available. Travel management serves multiple purposes, and 
funding may be used from a variety of Forest Service appropriations 
depending on the primary purposes served at the local level.

      Responses of Mike Johanns to Questions From Senator Salazar

    Question 1. The fire season has started early this year and the 
southern half of Colorado is, again, suffering from below average 
snowfall. I am concerned about the Forest Service's move away from 
working with states as evidenced by the cuts to State Fire Assistance 
(^36%) and Forest Health Management on both federal and cooperative 
lands (^54%). Why is the Forest Service funding less work with local 
communities?
    Answer. The President's Budget recognizes the importance of 
maintaining forest health technical assistance to federal and 
nonfederal land managers, maintaining forest health monitoring 
activities and meeting the highest priority pest suppression needs on 
federal lands, while relying on nonfederal partners to continue to 
share more of the cost of pest suppression on state and private lands. 
Further, the Budget reflects significant increases elsewhere for other 
activities that improve the health and vitality of national forests. 
For example, funding for Forest Products increases by $30 million 
(+11%) and Vegetation and Watershed Management increases by $6 million 
(+3%). President Bush is allocating $610 million in the 2007 budget to 
continue implementation of the Healthy Forests Initiative to reduce 
hazardous fuels and restore forest health. The budget proposal, more 
than a $12 million increase over 2006, takes an integrated approach to 
reducing hazardous fuels and restoring forest and rangeland health. 
Along with more than $301 million provided to the Department of the 
Interior, the 2007 budget provides a total of nearly $913 million to 
implement the Healthy Forests Restoration Act.
    The FY 2007 Budget reflects the President's commitment to providing 
the critical resources needed for our Nation's highest priorities: 
fighting the War on Terror, strengthening our homeland defenses, and 
sustaining the momentum of our economic recovery. This has required 
difficult decisions to be made. In this context, and given both the 
increases proposed for hazardous fuels funding and greater levels of 
cooperative conservation (see below), the FY 2007 President's Budget 
has proposed a $16.7 million decrease in program funds from the FY 2006 
enacted level. Funding for State Fire Assistance reflects the 
priorities of the Administration and is consistent with previous 
proposals for State Fire Assistance.
    In addition, cooperative conservation extends to the entire scope 
of work conducted by the Forest Service, whether it occurs on national 
forests, research labs, or on state and private lands. Forest Service-
wide efforts are broadening cooperative conservation with state, tribal 
and local governments, communities, private for profit and non-profit 
organizations, and private citizens; enhancing and integrating public 
and private land stewardship; bringing together key stakeholders and 
decision makers who can advance cooperative conservation; and enhancing 
on-the-ground conservation results and progress.
    Question 2. Concern in Colorado regarding bark beetles is 
increasing every year as the beetles and their visible impacts spread. 
As part of the FY 2006 Agriculture Appropriations bill I submitted an 
amendment requiring the Secretary to tell Congress what action was 
being taken on this front. As a result the USFS budget justification 
clearly lays out that federal funds supporting bark beetle management 
activities in 2007 are slated to be reduced by 49% to under $17 
million. According to your justification this cut will result in a 40% 
decrease in federal acreage receiving treatment and 44% decrease in 
cooperative acreage treatments. At the same time, the USFS is proposing 
to cut Region 2's Forest Products funding by $3 million dollars that 
will result in fewer stewardship contracts. This is unacceptable to 
Colorado. What is your rationale for this decision?
    Answer. The FY 2007 President's Budget for forest health is up 
nearly $12 million over the FY 2006 President's Budget, recognizing the 
importance of forest health to communities. The Forest Service 
continues to support the work of communities and States in addressing 
forest health and reducing the threat of wildland fire. The increase in 
Hazardous Fuels provides additional funds over the FY 2006 President's 
Budget to continue to work with other Federal agencies, communities, 
and organizations in planning treatments to reduce the risk of wildland 
fire in high priority areas, including the wildland-urban interface. 
Fuel management projects can alter fire behavior and have additional 
benefits such as reduced risk of bark beetle attack. Fuel management 
projects, while reducing flame lengths and slowing rates of spread, 
often produce a marketable forest products component. Although 
allocations to each region will not be finalized until after the 
enacted budget, the agency expects no net reduction to any region from 
the combination of Forest Products and Hazardous Fuels funding, which 
is necessary for continued progress in addressing the agency's critical 
forest health work.
    Question 3. Allow me to follow up on this issue to, perhaps, make a 
point. The bark beetle problem is the number one issue many of 
Colorado's local communities are facing. They are concerned about the 
tourism economies and they are concerned about the fire danger that 
bark beetles leave as their aftermath. Is it the Administration's 
position that it would be better to deal with the aftermath of economic 
downturn and wildfires than to invest in countering the threat?
    Answer. As mentioned previously, President Bush is allocating $610 
million in the 2007 budget to continue implementation of the Healthy 
Forests Initiative to reduce hazardous fuels and restore forest health. 
The budget proposal, more than a $12 million increase over 2006, takes 
an integrated approach to reducing hazardous fuels and restoring forest 
and rangeland health. Along with more than $301 million provided to the 
Department of the Interior, the 2007 budget provides a total of nearly 
$913 million to implement the Healthy Forests Restoration Act.
    Impacts from bark beetles are an issue across the West. In many 
areas, forests are aging and are overly dense; bark beetles are often 
agents of change when this stand condition exists. Bark beetle 
populations increase in dense, overstocked stands and areas where 
blowdown has occurred. Ground surveys, stand conditions, and beetle 
populations indicate that the mortality from the mountain pine beetle 
will increase in the future. Long-term solutions lie in restoring 
ecological conditions to a healthier state.
    The White River, Arapahoe-Roosevelt and Routt National Forests are 
developing a cooperative strategy with the BLM, Colorado State Forest 
Service, counties, conservation districts, and interested communities 
to address the current bark beetle infestation. This partnership will 
develop an array of prevention, suppression, salvage, and reforestation 
techniques to address the situation.
    The agency has already developed agreements with counties and 
communities in Colorado to increase the capacity for using wood 
products. These include cooperative power generation programs on the 
Front Range and working with the National Renewable Energy Laboratory 
to develop efficient uses of biomass material.
    The Forest Service is concentrating our bark beetle suppression 
efforts at high-value sites such as wildland-urban interface locations, 
watersheds and ski areas. Areas around Breckenridge and Vail are a 
priority.
    Question 4. The President's proposal to sell off 300,000 acres to 
generate $800 million has not received a warm welcome in Colorado. I 
would like to add my voice to the chorus opposing this idea. I don't 
want to spend a lot of time on this issue, but could you quickly tell 
me what kind of public input, if any, the USFS received regarding the 
different pieces of land that it proposes selling prior to submitting 
this plan as part of the Budget?
    Answer. The Forest Service developed a tentative list of 
potentially eligible parcels in order to promote public input. A 
Federal Register Notice was issued on February 28, 2006, inviting 
comments on the proposal and the parcel list. However, the public has 
been encouraged to comment on the list as of the date that the list was 
made public following the delivery of the President's Budget to 
Congress. All comments received before, and in response to the Federal 
Register notice, are being reviewed. Parcel-specific comments will be 
shared with the appropriate field units.
    Question 5. What is the current status of the proposed development 
at Wolf Creek that involves crossing the San Juan National Forest to 
reach the in-holding. What steps would be necessary for the proposal to 
move forward from the USFS' standpoint?
    Answer. The current status of the proposed road and utility access 
across the Rio Grande National Forest to the Village At Wolf Creek 
development is that the final environmental impact statement and record 
of decision are expected to be released to the public the first week of 
April 2006.
    In order for activities to move forward, once the decision has been 
made and published, the Rio Grande Forest Supervisor will issue the 
necessary road and utility authorizations. The developer will also need 
to obtain Highway 160 access permits from the Colorado Department of 
Transportation and fulfill the terms and conditions of the biological 
opinion issued by the U.S. Fish and Wildlife Service to protect the 
lynx.
    Question 6. Last year, I asked the USFS if the concerns of local 
communities were being considered regarding the proposed Wolf Creek 
development. I encouraged the Forest Service to not brush aside the 
concerns of the locals. I would like to re-new and stress the 
importance of that request.
    Answer. The concerns of Mineral County and the local communities 
are being considered and are addressed in the final environmental 
impact statement.
    Question 7. Colorado's Region (#2), whose forests provide 
recreation to approximately 32 million people every year, receives the 
lowest recreation, heritage and wilderness funding per visit out of any 
FS region ($0.60 per visit as compared to $1.06 per visit for Region 1 
in the Northern Rockies). In Colorado a unique group of 
conservationists, off road vehicle enthusiasts, and sportsmen have come 
together to ask the USFS to boost recreation funding in region 2 to 
implement travel/rec management plans plus inflationary increases. How 
is the USFS going to meet these critical needs in Colorado?
    Answer. The Forest Service continues to direct available resources 
towards meeting long-term strategic goals and providing increased 
support to programs that advance sustainable resource management, which 
includes providing outdoor recreational opportunities. Available 
recreation and trails program resources continue to be focused on 
efforts that maximize program delivery, emphasize delivery of services 
to the public, and strengthen partnerships which are vital to 
accomplishing stewardship work on the ground. The Rocky Mountain Region 
(Region 2) has taken several steps to reduce costs, including 
implementing the recreation sites facility master planning process, 
pursuing grants and matching funds, and actively engaging our partners 
in the management of the national forests.

                                    

      

</pre></body></html>
